<html>
<title> - UNLOCKING THE SAFETY ACT'S POTENTIAL TO PROMOTE TECHNOLOGY AND COMBAT TERRORISM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





 UNLOCKING THE SAFETY ACT'S POTENTIAL TO PROMOTE TECHNOLOGY AND COMBAT 
                               TERRORISM

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON CYBERSECURITY,
                       INFRASTRUCTURE PROTECTION,
                       AND SECURITY TECHNOLOGIES

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 26, 2011

                               __________

                           Serial No. 112-26

                               __________

       Printed for the use of the Committee on Homeland Security
                                     



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
72-236 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Vacancy
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

                                 ------                                

SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                Daniel E. Lungren, California, Chairman
Michael T. McCaul, Texas             Yvette D. Clarke, New York
Tim Walberg, Michigan, Vice Chair    Laura Richardson, California
Patrick Meehan, Pennsylvania         Cedric L. Richmond, Louisiana
Billy Long, Missouri                 William R. Keating, Massachusetts
Tom Marino, Pennsylvania             Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                    Coley C. O'Brien, Staff Director
                    Alan Carroll, Subcommittee Clerk
        Chris Schepis, Minority Senior Professional Staff Member













                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies...................................................     1
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     3

                               WITNESSES
                                Panel I

Mr. Paul Benda, Acting Deputy Under Secretary, Science and 
  Technology Directorate, Department of Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     7

                                Panel II

Mr. Marc A. Pearl, President and Chief Executive Officer, 
  Homeland Security and Defense Business Council:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19
Mr. Brian E. Finch, Partner, Dickstein Shapiro, LLP:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24
Mr. Scott Boylan, Vice President and General Counsel, Morpho 
  Detection, Inc.:
  Oral Statement.................................................    29
  Prepared Statement.............................................    31
Mr. Craig A. Harvey, Chief Operations Officer and Executive Vice 
  President, NVision Solutions, Inc.:
  Oral Statement.................................................    34
  Prepared Statement.............................................    35

 
 UNLOCKING THE SAFETY ACT'S POTENTIAL TO PROMOTE TECHNOLOGY AND COMBAT 
                               TERRORISM

                              ----------                              


                         Thursday, May 26, 2011

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Cybersecurity, Infrastructure Protection, 
                                 and Security Technologies,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 311, Cannon House Office Building, Hon. Daniel E. Lungren 
[Chairman of the subcommittee] presiding.
    Present: Representatives Lungren, Marino, Clarke, 
Richardson, and Richmond.
    Mr. Lungren. With the permission of the Ranking Member of 
the full committee, we are going to start this. We have votes 
scheduled in about an hour and a half, so I would like to see 
if we can get both panels done, because I understand we are 
going to have a long series of votes.
    So the Committee on Homeland Security, Subcommittee on 
Cybersecurity, Infrastructure Protection, and Security 
Technologies will come to order. The subcommittee is meeting 
today to examine the Department of Homeland Security's 
implementation of the Support Antiterrorism by Fostering 
Effective Technology, or SAFETY Act. I will begin by 
recognizing myself for 5 minutes or less.
    I want to welcome our witnesses this morning and thank you 
for your time and effort to assist our subcommittee's oversight 
efforts. I consider the Support Antiterrorism by Fostering 
Effective Technology Act, more commonly referred to as the 
SAFETY Act, a vital Government program in the fight against 
terrorism.
    New companies who are developing and deploying 
antiterrorism products and services are justifiably concerned 
that these technologies could leave them and their customers 
exposed to enormous civil liabilities. Legal precedents such as 
those emanating from the 9/11 attacks as well as those holding 
the Port Authority of New York and New Jersey liable for the 
1993 World Trade Center attacks make it clear that civil 
litigation can intimidate the developers and users of security 
technologies and services after a terrorist event.
    So Congress acted decisively to address this concern by 
passing the SAFETY Act as part of the Homeland Security Act of 
2002. SAFETY Act is intended to encourage the development and 
deployment of antiterrorism technologies by limiting the 
liability of sellers of the technology for third-party claims 
arising out of an act of terrorism where the technology has 
been deployed to prevent, respond to, or recover from such an 
act.
    It is meant not only to protect technology providers, but 
also businesses and facilities using them and to encourage 
people to use them before the fact. After 8 years, 440 
technologies have been SAFETY Act-approved.
    Initially, in my judgment, the program suffered from poor 
performance--that is, low number of applications, slow 
processing times because of lack of awareness of the 
protections and risk management benefits offered by the SAFETY 
Act and a burdensome application process.
    In 2006 the final rule was issued, and DHS made changes to 
streamline the application and review processes, which 
temporarily improved the SAFETY Act results. However, I see 
some troubling signs the implementation is again stalled with 
SAFETY Act certifications well below expectations.
    I find these statistics concerning. The number and 
percentage of SAFETY Act awards have decreased from 58 awards 
out of 70 applications in fiscal year 2006 to 40 awards out of 
121 applications in fiscal year 2010. That is an approval 
rating going from 83 percent to 33 percent.
    The number and percentage of SAFETY Act certifications 
specifically has drastically plummeted from 31 certifications 
over 70 applications in fiscal year 2006 to one certification 
out of 117 applications in fiscal year 2010, although I 
understand this percentage may improve slightly as DHS is still 
reviewing some of the fiscal year 2010 applications.
    Counter to expectations for fast processing times for 
renewals, the average time it takes to process a renewal, I am 
informed, is essentially equivalent to the time it takes to 
process a new application--that is, both approximately 120 
days.
    The number of companies seeking SAFETY Act renewal for 
previously SAFETY Act-approved technology appears to be 
significantly below expectations--that is, less than half. Of 
the companies seeking renewal, less than--have been successful 
and been granted continued SAFETY Act award status.
    The percent completeness of an application upon submission 
has dropped from 59 percent in fiscal year 2006 to 24 percent 
in fiscal year 2010, a 41 percent decrease. This translates, at 
least it appears on the surface, into an arduous and lengthy 
process with additional information being requested from 
companies and a lack of completeness.
    Unfortunately, anecdotal evidence from recent meetings with 
numerous companies support these statistical trends. It has 
been reported to our staff on several occasions that DHS is 
applying inconsistent and sometimes what appeared to be 
unreasonable application criteria, making it increasingly 
difficult to achieve certification as well as SAFETY Act 
approvals.
    The application of inconsistent criteria in the evaluation 
process would, of course, undermine the intent of the SAFETY 
Act and could yield potentially anti-competitive outcomes. The 
current complaint of all these meetings is widespread 
frustration with the arduous ordeal of SAFETY Act approval.
    I had hoped that the SAFETY Act would be a success story 
for DHS, for the business community and for our homeland 
security. As we struggle with tighter Federal budgets, we have 
to be more creative in developing homeland security 
technologies and encourage their deployment. Some recent 
Congressional efforts to poach the S&T budget for revenue 
create additional budget uncertainty.
    So I am a strong believer in the SAFETY Act and its intent 
and its importance to the business of homeland security. As 
with every successful business program, the application process 
should be as user-friendly as possible while upholding the 
standards that we intend to be included.
    The private sector has enormous research and development 
capability, and tighter Federal budgets will force us to tap 
these private sector resources even more. In order to do this, 
I would believe SAFETY Act liability protection is critical, 
and it provides DHS with a necessary tool to access large 
private sector investments in the homeland security marketplace 
for the protection of all Americans.
    I hope this hearing will help us to discover why the SAFETY 
Act hasn't been as effective as we would like. If there are 
things we need to do on the legislative side, we would like to 
be informed of that.
    Last, in the spirit of being fair and balanced, I have 
letters written to the committee recently from companies 
regarding their positive experiences with the SAFETY Act 
process. Without objection, these documents will be included in 
the hearing record.
    Now I would recognize the Ranking Member of the full 
committee, Mr. Thompson, for any statement he wishes to make.
    Mr. Thompson. Thank you very much, Mr. Chairman. I want to 
thank you for holding this hearing today.
    I also want to thank the witnesses of both panels for being 
here also. I especially want to thank Mr. Craig Harvey from Bay 
St. Louis, Mississippi, the Minority Member's witness who has 
come to share his company's experience with us. I might add 
this is his maiden voyage to come to Washington to serve as a 
witness, and I assured him that you would be kind to him, Mr. 
Chairman.
    Mr. Lungren. We will treat him gently.
    Mr. Thompson. Okay. Thank you.
    The Department of Homeland Security's Science and 
Technology Directorate is responsible for implementing and 
overseeing the SAFETY Act. We are going to hear testimony today 
detailing the application process for companies interested in 
having technologies designated as qualified antiterrorism 
technologies under the SAFETY Act.
    For this important program, the Government provides 
immunity from liability to any product or service approved 
under the SAFETY Act. Congress allowed this kind of liability 
protection to encourage innovation in the development of 
products and technologies that would help protect us from the 
terrorist threat.
    I should mention that unlike the patent, trademark, or 
other license provided by the Government, the Government does 
not charge a penny to thoroughly review each product for SAFETY 
Act approval. Mr. Chairman, I am wondering whether our current 
fiscal situation the Congress should consider requesting a 
small fee, perhaps, for this valuable service.
    But after we consider the fee question, we should focus on 
the number of businesses that have used this program, the 
outreach that the Department has done to attract small, 
minority, and disadvantaged businesses, and the effectiveness 
of the SAFETY Act approval process.
    As we all know, small businesses create most of the jobs in 
America. In this downturn of the economy, a SAFETY Act 
designation can improve a company's bottom line and help small, 
savvy companies create jobs. Having read the Department's 
statistics, I have some hope that the SAFETY Act is living up 
to its mission that products and technologies enter the 
process, are quickly reviewed and provided designations and 
certification in a timely manner.
    I hope the testimony reveals that small, disadvantaged, and 
minority-owned companies can access the SAFETY Act process 
without the help of $400-an-hour consultants. Now, companies 
must be able to navigate the process with assurance that their 
information is being rigorously reviewed, their proprietary 
information carefully guarded, and their applications are 
handled expeditiously.
    It is disturbing to me that the latest proposed fiscal year 
2012 budget level of $398 million for Science and Technology 
Directorate as introduced in the House appropriations mark 
would eliminate two-thirds of the research and development 
funding for the Department. I have serious concerns about these 
reductions in funding and how they will affect the free SAFETY 
Act service.
    I look forward to the testimony, Mr. Chairman, and I yield 
back.
    Mr. Lungren. Thank you very much.
    I would just say for the record that any other Member of 
the committee would be able to submit opening statement for the 
record.
    Now we are pleased to have the distinguished panel of 
witnesses before us today.
    Our first witness is Mr. Paul Benda, acting deputy under 
secretary for science and technology at the Department of 
Homeland Security. Prior to joining the Department, Mr. Benda 
served in several positions at the Department of Defense as an 
officer in the United States Air Force; program manager of 
Defense Advance Research Projects Agency; as the director of 
the Chemical, Biological, Radiological, Nuclear and Explosives 
program; and finally as the director of the Project Integration 
Office.
    The Chair recognizes Deputy Under Secretary Benda, and we 
thank you for your service to our country.

STATEMENT OF PAUL BENDA, ACTING DEPUTY UNDER SECRETARY, SCIENCE 
  AND TECHNOLOGY DIRECTORATE, DEPARTMENT OF HOMELAND SECURITY

    Mr. Benda. Thank you, Chairman Lungren. Thank you full 
committee Member, Ranking Member Thompson.
    I appreciate the opportunity to speak to you today about 
the SAFETY Act program and appreciate your time. I want you to 
know that we have used the SAFETY Act as a powerful 
incentivization for the development and deployment of anti-
terrorism technologies, and the Department of Homeland Security 
Science and Technology Directorate takes extremely seriously 
our job to evaluate and review these applications.
    The mission of the SAFETY Act sometimes gets lost in the 
rhetoric. That mission is to spur the deployment of anti-
terrorism technologies to protect Americans from terrorist 
attacks. It is our job, it is incumbent upon us, to ensure that 
when those technologies do receive SAFETY Act awards, that they 
are effective.
    The majority of criteria stated in the SAFETY Act focus on 
the effectiveness of those technologies. It is inherently a 
technical review, and it is important that it be a technical 
review, because it is important that those technologies work as 
expected when they are deployed. If they don't work, and 
something happens, someone could die. That is a responsibility 
that we take very seriously.
    I want to talk a little bit about where we have been, where 
we are, and where we are going. The program has matured, as you 
stated, Mr. Chairman. In the beginning we were a little slow. 
We were trying to find our footing. But right now, if you 
compare our numbers to the early years of 2004 to now, we are 
processing nearly twice as many applications twice as fast.
    We are also focused on making sure our program is 
accessible to all businesses, not just large businesses, not 
multinationals. So there is analysis of how many businesses of 
what types of businesses receive SAFETY Act awards or submit 
applications. It turns out by a margin of 2:1 small businesses 
versus large businesses apply for the SAFETY Act. We think that 
is important.
    Small businesses like NVision are the engines of innovation 
of this country, and we need to support them. So we have done 
everything we can to ensure that the process is not onerous. We 
have a pre-application process that allows small businesses to 
file an expedited application with us. We review that quickly, 
and then we bring them in for a conference and explain how they 
can go through the process. The majority of our applicants take 
advantage of this, and small businesses like NVision are able 
to navigate the process without any outside help.
    What we found was a little surprising. Over 70 percent of 
applications are done without any outside help at all. What is 
even more surprising is that those who don't receive outside 
help are actually processed 20 percent faster. So when we talk 
about requiring SAFETY Act experts to file an application, that 
is simply not true. Those that do it on their own with our help 
can actually do it faster.
    Now, I will say that those who use outside help are 
probably more complex. We have a series of complex applications 
such as services, and those take a longer time to review. But 
clearly, the process works for small businesses.
    We have heard about the diminished interest, and I think if 
you look at the unique number of applications that are filed, 
you could see a trend of that going downward, but I think it is 
much more important to focus on the awards that are actually 
granted.
    The difference between fiscal year 2010 awards and fiscal 
year 2009 is likely to be minimal. It will probably be at maybe 
2 percent less than what we currently do. In fiscal year 2011 
the numbers we showed you have gone up dramatically since we 
provided that information on April 13, because as we have 
generally seen, we see the vast majority of applications to the 
SAFETY Act in the last quarter.
    What is even more important, though, is that the quality of 
applications has gone up. In 2009, 19 percent of applications 
were deemed complete. In 2010, 24 percent were complete. So we 
have worked hard to try, as we said, with this pre-application 
process, to work with these companies to make them better.
    In 2011, as of today, 44 percent of our applications are 
complete. Generally, when the initial application is considered 
complete, 90 percent of those receive award. So the process is 
improving.
    Furthermore, we talk about renewals. In 2009 we only had 
four renewals that were submitted, which is admittedly a low 
number. In 2010 that number jumped by 600 percent to 24. In 
2011, two-thirds the way through the fiscal year, we are now at 
33, and we expect to have even more.
    We are on track, if you include unique new applications and 
renewals, to have the most awards granted by SAFETY Act in its 
inception. So the thought that this process is going down or 
decreasing simply doesn't hold true by the facts, when you look 
at the updated numbers that we have sent in.
    Now, where are we going? The SAFETY Act has strong support 
from the Department, strong support from Dr. O'Toole. She 
actually requested a Secretary-level policy review on how we 
can better use the SAFETY Act, how we can better incentivize 
the adoption of these antiterrorism technologies, and we are 
actively engaged in that.
    One of the areas where we have coalesced is the use of 
block designations. Block designations leverage existing DHS 
programs or other standard programs from other Government 
entities and allow for an expedited review. In fact, block 
designation applications are generally processed 25 percent 
faster, and we have identified additional process improvements 
that should allow us to process them 50 percent faster. We just 
posted another block designation in partnership with the 
Domestic Nuclear Detection Office GRaDER Program yesterday.
    So we are continuing our outreach. We recognize the 
importance of this program. Under Secretary O'Toole is actively 
engaged, and we are working very hard to maintain the 
accessibility of this program, maintain a rigorous process that 
is transparent, that is consistent, that is not overly 
burdensome, but still maintains our ability as the No. 1 
criterion of the SAFETY Act that it has demonstrated 
substantial utility and effectiveness. It is extremely 
important that we do those reviews, because if the technology 
fails, Americans can die.
    I look forward to your questions, and I will be happy to 
take any that you have. Thank you, Mr. Chairman.
    [The statement of Mr. Benda follows:]
                    Prepared Statement of Paul Benda
                              May 26, 2011
the support anti-terrorism by fostering effective technologies (safety) 
                              act of 2002
    Good afternoon, Chairman Lungren, Ranking Member Clarke and 
distinguished Members of the subcommittee. I am honored to appear 
before you today on behalf of the Department of Homeland Security (DHS) 
Science and Technology Directorate (S&T). The Support Antiterrorism by 
Fostering Effective Technologies (SAFETY) Act of 2002, enacted by 
Congress as part of the Homeland Security Act of 2002, has had a 
prominent role in improving the security of the United States. The 
SAFETY Act provides incentives for the development and deployment of 
effective anti-terrorism technologies through systems of risk and 
litigation management. The purpose of the Act is to ensure that the 
threat of liability does not deter potential manufacturers or sellers 
and users of anti-terrorism technologies from developing and 
commercializing technologies that could save lives. The Act creates 
certain liability limitations for claims arising out of, relating to, 
or resulting from an act of terrorism where ``qualified anti-terrorism 
technologies'' have been deployed. My testimony will discuss program 
performance, the application review process and how S&T is using this 
important tool to incentivize the development and widespread, high-
impact deployment of effective anti-terrorism technologies and services 
throughout the United States.
                   strong interest, steadfast support
    The SAFETY Act Program continues to be very popular with the 
private sector and the Department has continued its steadfast support 
for the Program. Since the first applications were received in 2004, 
more than 440 ``qualified anti-terrorism technologies'' under the 
SAFETY Act have been approved. These technologies have been widely 
deployed to protect commercial facilities, critical infrastructure, 
transportation hubs, ports, borders, sports venues, and commercial 
aviation. Examples representing the broad scope of SAFETY Act 
protections that have been approved during Under Secretary O'Toole's 
tenure include:
    1. A technology that provides cybersecurity situational awareness 
        and network security monitoring.
    2. A technology undergoing testing and evaluation designed to 
        provide cybersecurity protection for the smart grid.
    3. Technologies designed to harden bridges and tunnels in New York 
        City.
    4. An integrated system technology undergoing testing and 
        evaluation designed to provide situational awareness for the 
        Port of Long Beach, California.
    5. A modular, rapidly deployable floating security barrier system 
        designed to protect targets from high-speed small boats.
    6. Anti-terrorism physical security services deployed to detect, 
        deter, and respond to a variety of threats at commercial 
        facilities and adjacent critical infrastructure in the New York 
        Metropolitan area and in New Jersey.
    7. A process for the production of an ammonium nitrate fertilizer 
        treated to render it less detonable than standard fertilizer.
    8. On-site production system for chlorine at water treatment plants 
        (eliminating transport risk of bulk chlorine).
    9. Threatening object- and explosive-detection systems deployed in 
        the Nation's airports.
    10. A web-based software tool that integrates a first responder 
        decision support system with geospatial information technology.
    11. An acoustic detection system to detect and rapidly triangulate 
        gunshots and explosive event sounds.
    12. Explosive containment vessels, allowing for the safe 
        containment, transport, and disposal of explosive devices (used 
        in response to Times Square bombing attempt in May 2010).
    These SAFETY Act Designations and Certifications have increased the 
Nation's anti-terrorism readiness as well as our domestic industrial 
capability in the homeland security sector.
                          safety act progress
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As shown in Figure 1, applications have doubled since fiscal year 
2006, while average application processing times have been reduced by 
more than 30 percent. This trend has continued into fiscal year 2011, 
where we are expecting 200 to 250 applications with a processing time 
currently averaging 113 days. As shown below in Figure 2, the majority 
of program applicants are from smaller businesses. For the purpose of 
Figure 2, we have grouped businesses with annual revenues under $50 
million as small business. So far in fiscal year 2011, small business 
applicants comprise two-thirds of the applicant pool, with average 
annual revenues for this group at less than $11 million. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 3 is a flow diagram of the review process used to evaluate 
SAFETY Act applications. Due to the significance of a SAFETY Act 
Designation or Certification, considerable thought and effort were 
devoted to developing a review process that is well-defined, 
repeatable, and applicable for evaluating both product- and service-
based technologies against the SAFETY Act statutory and regulatory 
criteria.
    Applications are filed electronically via the SAFETY Act website at 
www.safetyact.gov. Before an applicant submits a full application, they 
may choose to submit a pre-application, which is an abbreviated 
application, primarily containing narrative information. This summary 
process is designed primarily for first-time applicants or for those 
with a unique offering so they can receive prompt feedback and guidance 
on the scope of information they should submit in order to maximize the 
chance of success. Within 21 days of application receipt, the Office of 
SAFETY Act Implementation (OSAI) transmits a letter to the applicant's 
SAFETY Act account on the website and offers to hold a teleconference 
with the applicant to discuss their technology and prospective 
application for Designation, or Designation and Certification.\1\ OSAI 
technical and economic reviewers participate in the calls; the length 
and level of detail discussed during the calls is determined by 
applicant need.
---------------------------------------------------------------------------
    \1\ For a Designation, liability is capped at the amount of 
liability insurance that DHS requires the technology seller to obtain 
and maintain. A Certification has a rebuttable presumption that the 
Government contractor defense applies. The presumption may be overcome 
only by clear and convincing evidence showing that the seller acted 
fraudulently or with willful misconduct in submitting information to 
DHS in its SAFETY Act application.
---------------------------------------------------------------------------
    Applications filed for Designation or Designation and Certification 
are evaluated as follows: 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Submission--Completeness Phase
    During the completeness phase, a submission undergoes a brief 
review to determine if the information submitted by the applicant is 
sufficient to conduct a review of a proposed Qualified Anti-Terrorism 
Technology (QATT) with respect to the statutory and regulatory 
criteria. The goal of this phase is to determine whether it appears 
that there is sufficient information in the application to receive an 
informed evaluation from the expert reviewers who conduct the full 
technical and economic review. Review personnel who are employees of 
the Institute for Defense Analyses \2\ (IDA) and who have significant 
SAFETY Act Program experience perform this completeness review. On or 
about day 30, if the application appears to have sufficient material to 
permit a full review, a completeness letter is sent to the applicant. 
The completeness letter asks the applicant to confirm the technology 
description drafted by OSAI, and OSAI's summary of the insurance the 
applicant holds. Completeness letters often have a short list of 
questions for the applicant, which they should be capable of answering 
relatively quickly (normally the applicant is given 21 days to provide 
this information).
---------------------------------------------------------------------------
    \2\ IDA, a Federally Funded Research and Development Center, 
provides technical and expert assistance to the Office of SAFETY Act 
Implementation. IDA is contracted for these services under an Inter-
Agency Agreement.
---------------------------------------------------------------------------
    If an application appears to not have sufficient material to permit 
a full review, the applicant receives an incompleteness letter with a 
listing and discussion of the items that are needed to complete an 
application. Reasons an application could be determined to be 
incomplete include: (1) The applicant does not provide enough 
information to develop a definition of the technology, which is an 
essential element of any SAFETY Act Designation or Certification; (2) 
the applicant does not answer significant questions on the application 
form; (3) the materials submitted support only part of a technology's 
capabilities (e.g., for an integrated system, information is provided 
on the video sensor, but no information on the chemical and 
radiological sensors); (4) the applicant makes a material claim 
concerning the capability of the technology that is not substantiated 
by the evidence provided; and/or (5) documents submitted are incomplete 
or internally inconsistent (training records submitted are inconsistent 
with stated training policy, test report stating that a significant 
part of the testing was not conducted, performance report that 
indicates a significant failure rate).\3\ Completeness/incompleteness 
letters are carefully reviewed and signed by the Director of OSAI prior 
to release to the applicant. An incompleteness letter is posted to the 
applicant's on-line application account as soon as the letter is 
finalized. Normally, this occurs near the 30-day point, but could be 
much earlier, if there are significant deficiencies in the application 
that are readily apparent to reviewers.
---------------------------------------------------------------------------
    \3\ The SAFETY Act Program offers a wide variety of opportunities 
for applicants to learn what level of information/data they should 
submit in an application. Opportunities and resources include the pre-
application process, teleconference, or in-person meeting with senior 
review and program staff, and the SAFETY Act help desk, a resource that 
is reachable by phone or email.
---------------------------------------------------------------------------
    We believe this approach is preferable to proceeding on with a full 
review, in spite of identified deficiencies in the application, where 
the likely end result would likely be a denial letter. Receiving an 
incompleteness letter could result in the applicant receiving a 
favorable decision on its application earlier than if it had to wait to 
receive a denial letter at or near the 120-day point to learn what is 
required to prepare a successful application. It also conserves 
Government resources. The S&T Directorate frequently uses independent 
Subject Matter Experts (SMEs) to conduct the technical and economic 
reviews following the completeness phase. Having these experts file 
reports which state that insufficient information was submitted for 
them to render an opinion concerning the efficacy of the technology is 
not a prudent use of scarce program resources.
Full Technical and Economic Review
    If sufficient information for analysis exists, the application 
enters the economic and technical review phase. The application and 
supporting documentation is reviewed by economic and technical SMEs to 
the OSAI. Concurrently, the IDA staff evaluators conduct independent 
research on the technology of interest (including discussions with 
points of contact with Federal, State, local, and private sector 
technology users). Following the SMEs review, summary findings, 
independent research, insurance and economic information are assessed 
in relation to the statutory and regulatory criteria by internal, 
independent experts. Following a thorough internal peer review and 
quality assurance process, a completed analysis is prepared by IDA for 
review by the Director of OSAI. The Director, based on these 
independent findings and his/her own knowledge, on or about day 95 
following application submission, provides a written report containing 
a recommendation concerning the appropriate level of SAFETY Act 
protection and a proposed liability insurance requirement, and selected 
application materials to the Office of the Under Secretary, Science & 
Technology, Department of Homeland Security.
Office of the Under Secretary, S&T Review
    During this final phase, the application is first reviewed by the 
S&T Testing and Evaluation Support executive. Areas of review include 
evidence of technical efficacy, application of relevant standards, a 
review of any testing and evaluation performed, and, drawing on 
extensive background and contacts in the testing and evaluation field, 
whether there are stakeholders or experts in the interagency who should 
be consulted. Second, the application moves to the DHS Office of the 
General Counsel (OGC), which evaluates the sufficiency of the review 
process (i.e. whether the record adequately reflects adherence to the 
policies, procedures, and criteria set forth in the SAFETY Act statute 
and the Department's implementing regulations), the determination of 
the recommended insurance liability cap, the sufficiency and 
appropriateness of the description of the covered technology in the 
Exhibit A Technology Description document, and the content of the 
proposed SAFETY Act award letters (including the date of first sale of 
the technology, the correct listing of all named sellers and their 
States of incorporation and any specific terms and conditions 
pertaining to the particular award). Third, the application is reviewed 
by the Director of the Research and Development Partnerships (RDP) 
Group, who has direct supervisory authority and responsibility over the 
OSAI. Lastly, the application moves to the S&T Executive Secretariat, 
where the award documents undergo a brief administrative review, before 
moving to the Office of the Deputy Under Secretary, who is the Under 
Secretary's designee for signing SAFETY Act awards. Those applications 
that present significant policy issues are referred by the Deputy Under 
Secretary to the Under Secretary for final decision.
    Each application's progress is tracked by a spreadsheet, updated 
weekly, that contains completion of milestones and current status of 
the review.
                       safety act as incentivizer
    The SAFETY Act was designed to incentivize the development and 
wide-spread deployment of effective anti-terrorism technologies. In 
implementing this powerful tool, the Department has used a two-prong 
approach: (1) Incentivize private sector entities to build effective 
antiterrorism capabilities that they determine to be appropriate using 
their requirements, analyses, and considerable judgment, and (2) 
increase the accessibility, reach, and impact of Government homeland 
security initiatives. Most of the Designations and Certifications to 
date reflect the judgments of private sector providers and purchasers 
of anti-terrorism technologies and services delivered through the free 
market.
    Support for Government initiatives is provided principally through 
two processes: (1) A procurement Pre-Qualification Designation Notice, 
which provides advance notice that private sector entities selected to 
perform under a listed Government procurement will likely qualify for 
SAFETY Act protections related to their performance, and (2) Block 
Designations or Block Certifications, which provide notice that private 
sector entities who provide, whether to private sector or public 
purchasers, certain technologies or services which meet defined 
performance standards or technical characteristics are likely to be 
approved for SAFETY Act protections for those products or services.
    As an example, a very popular procurement Pre-Qualification 
Designation (recently converted to a Block Designation) is for the 
Transportation Security Administration's (TSA) Certified Cargo 
Screening Program. This Program involves private sector-owned and -
operated secure facilities established in accordance with TSA 
directives for the screening and securing of cargo to be transported on 
commercial aircraft. We have issued more than 40 Designations under 
this Program; many participants are small companies who do not have the 
revenue to purchase large amounts of terrorism liability insurance. 
Other procurement Pre-Qualification Designation Notices are listed on 
the SAFETY Act website. Despite this and other noteworthy successes, 
the Department has recognized the challenges in applying the SAFETY Act 
with respect to Federal procurements. An effort initiated to better 
inform the Federal acquisition community of the SAFETY Act and how it 
can be incorporated effectively is nearing completion. The Federal 
Acquisition Institute (FAI), in collaboration with the Department, is 
developing a multimedia, on-line training course that will help 
acquisition personnel properly apply the SAFETY Act to an acquisition. 
FAI and DHS anticipate launching the SAFETY Act and Federal Acquisition 
course by summer.
    We are also seeking to use Block Designations and Block 
Certifications more often as they are powerful tools to incentivize 
deployment of anti-terrorism technologies and offer an expedited review 
time line. S&T recognizes that the SAFETY Act application process 
requires a significant investment by the applicant who would like us to 
process their applications more quickly. While we consistently meet the 
application processing time lines set forth in the SAFETY Act Final 
Rule, we are looking at expanding our use of Block Designations, which 
are processed 25 percent faster than standard applications. Our goal is 
to streamline our Block review process and speed processing time lines 
to be 30 to 50 percent faster than standard applications and provide an 
expedited review path for appropriate technologies.
    An example of a recently approved Block Designation and Block 
Certification is for standards development organizations who wish to 
seek SAFETY Act coverage for National standards that have been formally 
adopted by DHS as DHS National Standards. Recently, as a result of an 
S&T policy review, the opportunity to receive SAFETY Act coverage for a 
broader range of anti-terrorism standards has been approved and 
announced on the SAFETY Act website. The intent of this initiative is 
to provide incentives for increased use and more widespread 
implementation of anti-terrorism standards, by significantly expanding 
the pool of standards eligible for SAFETY Act coverage. This initiative 
has strong industry interest.
    S&T has also partnered with the DHS Domestic Nuclear Detection 
Office (DNDO) to create a new Block Designation to incentivize the 
deployment of nuclear detection technologies. The DNDO Graduated 
Radiological/Nuclear Detector Evaluation and Reporting (GRaDER) 
Program, which evaluates commercial off-the-shelf Radiological/Nuclear 
detection equipment against National standards, has developed a 
mechanism for manufacturers to independently verify the performance of 
their technologies. The Block Designation will apply to technologies 
having undergone testing in accordance with the GRaDER program that 
have fully met the American National Standard Institute N42 standard or 
applicable published Government standards.
    The SAFETY Act is also involved as an integral part of other DHS 
programs and projects. In S&T, the SAFETY Act will help incentivize 
private sector involvement in our newest APEX projects, which are 
projects that have been endorsed by both a DHS component head and the 
Under Secretary of Science and Technology through a signed charter. The 
goals of the APEX projects are to transition high-impact technology-
based capabilities directly into components operational programs. Our 
most recently signed APEX project with the U.S. Customs and Border 
Protection (CBP) is to leverage Customs-Trade Partnership Against 
Terrorism (C-TPAT) Tier III shipper's approved security plans and 
operations with an Electronic Chain of Custody (ECoc) lock that S&T 
developed to create a ``Secure Transit Corridor'' with supply chain 
routes originating from Mexico and Canada to allow expedited security 
screening at CBP-selected pilot ports of entry. If this pilot is 
successful, we hope to incentivize adoption of this model by private 
industry by creating a Block Designation for commercial shippers who 
agree to deploy the ECoCs and follow the stringent security standards 
required of C-TPAT Tier III shippers. This effort will improve overall 
supply chain security while at the same time expedite the free flow of 
trade and reduce liability insurance costs of participating shippers.
    We are also actively engaged in several other initiatives--
concerning cybersecurity, infrastructure protection, stadium security, 
transportation security, and private sector resilience--that will use 
the SAFETY Act to strengthen and enhance the security of the Nation. As 
you can see, this is a dynamic program that is continually evolving to 
meet the needs of the Government in true partnership with the private 
and public sectors.
                               conclusion
    In closing, I would like to thank you for the invitation to appear 
before you today and your continuing support of the SAFETY Act. I look 
forward to answering your questions and to working with you on 
maintaining the vitality of this very important program.

    Mr. Lungren. Thank you very much, Mr. Benda. We will start 
the round of questioning by yielding myself 5 minutes.
    The numbers you cited here seem to be somewhat inconsistent 
with the numbers I have been given before. The numbers I had 
was that the number of new SAFETY Act applications was 142 in 
fiscal year 2009, but only 28 at the halfway mark in fiscal 
year 2011. Did you say you updated numbers and that is not an 
accurate reflection of this year, fiscal year?
    Mr. Benda. That is correct, sir. I believe you received 
your numbers on April 13, and what we generally find is we 
receive the majority of applications the last quarter. We do 
have updated numbers that we are happy to provide you.
    Mr. Lungren. Do you believe that you will be somewhere in 
the neighborhood of where you were in 2009, like 142?
    Mr. Benda. Well, sir, I don't believe that the number of 
applications is a good metric. I believe the number of awards--
--
    Mr. Lungren. Yes, I understand that. But my question is the 
number of applications, because that would be an indication of 
confidence in the program by those who wish to participate in 
the program. So I am just asking you whether you see whether 
you are trending upward in number of applications to get back 
to where we were in 2009.
    Mr. Benda. No, sir. We will not see that same number.
    Mr. Lungren. Is the reason because the universe of those 
that can be assisted by the SAFETY program and who would assist 
us by the SAFETY program is reaching its ultimate? Or is it 
because the usefulness of the program somehow is not apparent 
to those on the outside? Or is it some other reason?
    Mr. Benda. Well, it is a hard question for me to answer, 
sir. I am unsure. I think that those who know about it have 
probably filed. I think the number you are referring to is 
unique applications.
    When I think the expansion, the next level for us in our 
view is the block designation, sir. We think that is a less 
onerous process. We think the number of applications we will 
receive under that with what we are doing with DHS National 
standards, what we are doing with DNDO's GRaDER Program, where 
we hope to go with CBP's C-TPAT Program, we hope to see those 
number of applications significantly improve over the coming 
years.
    Mr. Lungren. Do you have an observation about whether or 
not the SAFETY Act is appropriate for certain sectors, but not 
other sectors? Has there been an analysis done for outreach in 
different sectors where you believe it is appropriate for 
SAFETY Act application?
    Mr. Benda. We have left the aperture wide open, sir. We are 
interested in incentivizing the deployment of antiterrorism 
technologies. Any sector that is open and supports that 
mission, we will support.
    Mr. Lungren. So do you need to do more outreach? Do you 
need to make any changes legislatively? Are there any other 
changes, efforts, emphasis that the Department needs so that we 
can ensure to a greater extent that the possibility of those 
who would benefit from this is expanded?
    Mr. Benda. We are attempting to do the best outreach we 
can. We have actually posted on our website a notice for 
personnel or for companies that are submitting for procurement 
that they can have their procurement officer contact us to see 
if SAFETY Act protections apply. We have worked with the 
Federal Acquisition Institute to develop an on-line training 
course for Federal acquisition officers on how the SAFETY Act 
can work.
    But unfortunately, with the 22 percent budget cut that the 
Science and Technology Directorate took in fiscal year 2011 and 
the potential 65 percent budget cut we are facing in 2012, it 
is unlikely that we would have the resources available to do 
any additional outreach than those already planned.
    Mr. Lungren. Well, you have got the line drawn.
    Mr. Benda. Thank you, sir.
    Mr. Lungren. Well, let me ask you this. Why did the Under 
Secretary delegate her responsibility to review and render 
decisions regarding the SAFETY Act to you? How does she, if she 
does, remain involved if, as you say in your prepared 
testimony, she considers this to be an important area of her 
jurisdiction?
    Mr. Benda. Well, sir, one of the reasons she delegated that 
responsibility down is that we are interested in expediting the 
review process as quickly as possible. Under Secretary O'Toole 
wanted someone that had the time available to do a good review 
of these applications. Simply, if you look at her inbox on a 
daily basis, the SAFETY Act applications were piling up, and 
she recognized for them to get a timely review, it would be 
helpful to delegate that down.
    Now, she and I have, I would say, not necessarily daily 
discussions, but certainly multiple times a week, about SAFETY 
Act applications. She also ensured that any application that 
has significant policy implications are brought to her for 
discussion prior to signing.
    Mr. Lungren. You are using the impact of budget 
restrictions. Given the fact we are going to have tough budget 
times, where are you looking for efficiencies in your program?
    Mr. Benda. The block designations, sir. We really think 
that this is a great way to expand the program. That will be 
more efficient for the U.S. Government, as well as for those 
people that are applying.
    Mr. Lungren. Thank you. My time has expired.
    The Ranking Member of the full committee is recognized for 
5 minutes.
    Mr. Thompson. Thank you, Mr. Chairman.
    Mr. Benda, how do you report your approvals? Is it based on 
company size, employees, amount of business, or how do you do 
it?
    Mr. Benda. We report our approvals as requested by the 
committee, sir. The table that you received was surprisingly 
specific in how the numbers should be put out, even. So we are 
happy to report them in any way you like. We can do it by 
company size. We can do it by total number of pools. We can do 
it by unique applications. We can do it by renewals. We have 
all that data available.
    Mr. Thompson. Thank you. I think I would appreciate you 
providing that information. For the sake of questions this 
morning, can you tell us where you find the majority of SAFETY 
Act approvals coming, based on the size?
    Mr. Benda. I do. Most come from small businesses, sir.
    Mr. Thompson. So small businesses are able to navigate 
SAFETY Act requirements. Do you see a need to have professional 
help to fill out the application, or if they would just call 
you and say, ``Look, I have a question. What does this mean?'' 
Is the process onerous that you have to go through significant 
expense to fill out an application?
    Mr. Benda. I know I wouldn't characterize the process as 
onerous, sir.
    I had a surprising conversation at one of Mr. Pearl's 
events when I talked with a large company that was explaining 
to me or asking me why their application fees have gone up so 
much. I told them we don't charge a fee. They said, ``Well, our 
counsel, our outside counsel, used to charge $30,000 for a 
SAFETY Act application, and now they charge $60,000.'' I said, 
``Well, I don't even know why you are using outside counsel.''
    We are focused specifically on the technology 
effectiveness. If you look at the final rule in the criteria, 
it is mostly due to effectiveness. We have in place a robust 
pre-application process where companies can submit a shorter 
version of what they are looking for. I think NVision went 
through this process.
    We convene a conference call with them to discuss the 
application, the issues. Then we work with them hand-in-hand so 
that they can get the SAFETY Act designation that is due to 
them. It is important for us to give them that.
    Mr. Thompson. So the fees that companies pay are because 
they have gone and hired somebody to make their application on 
their behalf.
    Mr. Benda. Yes, sir, at best.
    Mr. Thompson. As well there is no at this point--the 
Department itself does not charge any fees for processing the 
SAFETY Act application.
    Mr. Benda. No, sir. It is important to note that, as I 
said, 70 percent do not use outside counsel, and those are 
actually processed faster.
    Mr. Thompson. Last question, is every SAFETY Act 
application treated individually for review rather than just 
some rubber-stamp process? What I am trying to get, so there is 
no assembly line-type process. It is an individual internal 
review by your Department.
    Mr. Benda. Yes, sir. It is very important that we do not do 
a presumption of effectiveness. These technologies protect the 
American public from terrorists. We can't presume they are 
effective. We have to look at the data. We have to look at the 
body of scientific evaluation that is called out in the 
criteria. If these technologies fail, people die.
    Mr. Thompson. Thank you.
    Yield back, Mr. Chairman.
    Mr. Lungren. The gentleman yields back.
    Now, in accordance with the rules of the subcommittee, I 
recognize other Members according to their appearance here, so 
Mr. Richmond of Louisiana is recognized for 5 minutes.
    Mr. Richmond. I am going to yield back and wait for the 
next panel, if that is all right.
    Mr. Lungren. That is fine----
    [Laughter.]
    Mr. Lungren. Since I have been advised we will probably 
have votes at 11:30 and it may last until 2:30 on the floor. So 
we would like to get our panel here and not have them sit for 4 
hours waiting to come back.
    Ms. Richardson, the gentlelady from California, is 
recognized for 5 minutes.
    Ms. Richardson. Yes, thank you, Mr. Chairman. I will be 
brief. I only had, I think, two questions.
    Sir, you noted that since 2004 you guys have had over 400 
applications, I believe, that were certified.
    Mr. Benda. We had 400 awards made. Some were designations. 
Some were certifications.
    Ms. Richardson. Out of what number? I didn't find that in 
the testimony.
    Mr. Benda. I don't have that total number in front of me. I 
believe it is close to 700-something.
    Ms. Richardson. So you would say your percentage is a 
little more than 50 percent. Would that be accurate?
    Mr. Benda. Yes, ma'am.
    Ms. Richardson. Okay. Is that 50 percent total since 2004, 
or what would it be in the subsequent years? Do you have any 
idea?
    Mr. Benda. The percentage of applications, based on fiscal 
year 2011 numbers, ma'am, that are receiving designation or 
approval, seems to be going up.
    Ms. Richardson. Yes, but that doesn't give us really any 
specifics. Would you mind supplying to the committee for 2004, 
2005, 2006, 2007 and each year how many applied and how many 
were in fact approved?
    Mr. Benda. Yes, ma'am.
    Ms. Richardson. You have that. Okay.
    Mr. Benda. I do.
    Ms. Richardson. All right. That is my only question.
    Mr. Lungren. The gentlelady has yielded back.
    We thank you for appearing before us. I thank you for your 
service to our country, and I hope things are as good as you 
presented them to be. Maybe we will make inquiries of the 
second panel to see their observations, but the updated numbers 
are encouraging.
    But I want to tell you that we will continue on this 
subcommittee to look very closely at this program, because, as 
you have suggested, this is an important program and one that 
we think is worthy of continuation and, even in difficult 
budget times, one that we want to make sure it succeeds. Thank 
you very much.
    Mr. Benda. Thank you, Mr. Chairman. Please feel free to ask 
me for a button.
    [Laughter.]
    Mr. Lungren. I love the SAFETY Act. Yes, sure.
    Mr. Benda. Thank you, sir.
    Mr. Lungren. All right. We will ask the second panel to 
come forward. It consists of Mr. Marc Pearl, Mr. Brian Finch, 
Mr. Scott Boylan, and Mr. Craig Harvey.
    Mr. Marc Pearl is the president and CEO of the Homeland 
Security and Defense Business Council. He has held numerous 
positions in the private sector relating to technology and 
cybersecurity policy issues, previously served as a chief of 
staff and counsel of our former colleague, Dan Glickman of 
Kansas. I think I came to Congress with Dan, but that was just 
a couple of years ago.
    Mr. Brian Finch leads the homeland security practice and is 
a partner in the law firm of Dickstein and Shapiro. Mr. Finch 
has developed significant private sector experience in 
assisting companies to obtain protections under the SAFETY Act. 
He is an adjunct professor at the George Washington University 
Law School, where he teaches homeland security law and policy, 
and is a senior advisor to the Homeland Security and Defense 
Business Council.
    Mr. Scott Boylan is the vice president of government 
relations and general counsel at Morford Detection, Inc., a 
company specializing in explosives, narcotics, and chemical 
detection systems. Dr. Boylan previously served at the 
Department of Treasury, the Department of Justice, and most 
recently, the Department of Homeland Security, where he was 
senior advisor to the secretary.
    Mr. Craig Harvey worked at the U.S. Geological Survey for 
nearly 15 years as a field specialist and National instructor 
and most recently helped found NVision Solutions, a geospatial 
technology integration company, where he serves as chief 
operations officer and executive vice president.
    Gentlemen, thank you for being here. We appreciate your 
time and your expertise. We would tell you that your written 
submissions will be made a part of the record and that we would 
ask you to summarize your testimony for 5 minutes apiece. Then 
we will ask questions.
    I do acknowledge the attendance of Ms. Clarke, our Ranking 
Member of the subcommittee.
    So if you would start in the order in which I introduced 
you.
    Mr. Pearl, first, you are recognized to testify.

   STATEMENT OF MARC A. PEARL, PRESIDENT AND CHIEF EXECUTIVE 
    OFFICER, HOMELAND SECURITY AND DEFENSE BUSINESS COUNCIL

    Mr. Pearl. Thank you, Chairman Lungren, Ranking Member 
Clarke, Ranking Member Thompson and Members of the 
subcommittee. I thank you for giving the Homeland Security and 
Defense Business Council an opportunity to appear before you 
today.
    As the Chairman said, I am Marc Pearl. I serve as the 
president and CEO of the council, a not-for-profit, nonpartisan 
organization of the leading companies that deliver homeland 
security solutions to the marketplace.
    The council's main mission is to ensure that the 
perspective, innovation, expertise, and capabilities of the 
private sector are fully utilized in our Nation's security. 
Only when there is substantive engagement between the 
Government and industry can we successfully deliver efficient, 
effective, and fiscally responsible, high-quality homeland 
security solutions to our citizens.
    The intent of Congress when it enacted the SAFETY Act in 
2002 was to focus on the need to be proactive rather than 
reactive after 9/11 and nurture an environment that put R&D 
into an anticipatory posture. You gave industry solution 
providers a valuable legal tool to encourage the innovation, 
implementation, and deployment of technologies that help make 
our Nation safer and more secure.
    The focus of my testimony is to provide the subcommittee 
with a perspective on how we can work together to: (1) Improve 
the process, (2) achieve the priorities of the Act, and (3) to 
ensure greater public support for the SAFETY Act. I appreciate 
your putting our full written testimony into the record.
    First, with regard to a more effective process, the SAFETY 
Act has seen many peaks and valleys with respect to the amount 
of effort by companies who apply for certification to obtain 
its protection. Initially, the arduous and sometimes burdensome 
process deterred many applicants.
    Many of our members are also concerned that the bases for 
technological evaluations of technologies of the SAFETY Act 
have not been consistent or as transparent as they could be. 
DHS should be encouraged to refrain from applying inconsistent 
criteria in their technical evaluation.
    DHS, as we heard by Deputy Under Secretary Benda, has 
worked to revise and streamline its review process and has set 
into place more formal and reliable review mechanisms. But more 
effort is necessary to further streamline and make consistent 
the certification process.
    The SAFETY Act review process must, of course, continue to 
be rigorous and thorough and conclusive in order that should a 
product or service be challenged, there is a strong review 
record in place. It is critical to ensure that the review 
process establishes solid presumption of reliability, inspires 
confidence that the approved product or service truly has a 
utility against terrorism, and encourages customers to utilize 
and deploy approved technologies.
    DHS, however, must understand that the Act it is 
responsible for administrating is fundamentally a legal, not a 
scientific engineering or technical merit, program. The 
certification process does not require detailed review of 
systems, but a determination with reasonable certainty that a 
product, technology, or service is useful and effective against 
terrorism. Congress never intended to have the SAFETY Act 
certified solution be the most useful or the most effective 
effect tool against terrorism. We cannot let the perfect be the 
enemy of the good.
    With regard to, second, the priorities, the SAFETY Act is 
meant to provide, as you said yourself in your opening remarks, 
an incentive to the private sector to continue to research and 
utilize anti-terrorism technologies. The act should serve to 
encourage industry to continue to innovate, but DHS must be 
more actively involved in promoting its benefits and show that 
it is a priority program.
    For example, the Department could improve efforts to 
educate Federal contracting officials regarding the act and its 
related changes to the Federal Acquisition Regulations. The 
SAFETY Act could also be better aligned with the Federal 
acquisition process as a whole, including the eliminating of 
redundancies in and expediting technical evaluations of its 
applications relating to products and services that are 
procured not only by DHS, but other Federal Government 
entities.
    We also believe that DHS should work more closely with 
third parties, such as the risk management industry, to better 
explain the values of the provisions. These could have an 
enormously positive effect on the underwriting process.
    Third, with regard to garnering greater public support, the 
focus of the attentions regarding successful implementation of 
the Act should not be on how it limits liability, but rather 
how it encourages greater and more widespread deployment of 
technologies that could deter terrorism and protect our 
citizens.
    DHS can ensure that a greater number of beneficiaries will 
recognize the benefits of the Act and industry can better 
understand what to expect from a successful application by 
better promoting it within Government and to the business 
community.
    The rest of my remarks are part of the written record, but 
I want to say in conclusion that the SAFETY Act is a vital tool 
that can help us become a safer and more secure Nation by 
encouraging the successful implementation and deployment of 
technologies.
    We thank you for this opportunity. We pledge to work with 
the subcommittee and the Department to achieve an environment 
where an improved and robust SAFETY Act is fully embraced and 
marketed in an atmosphere ensuring a sound, fair, and 
responsible certification process.
    [The statement of Mr. Pearl follows:]
                  Prepared Statement of Marc A. Pearl
                              May 26, 2011
                              introduction
    Chairman Lungren, Ranking Member Clarke and Members of the 
committee, thank you for giving the Homeland Security & Defense 
Business Council an opportunity to appear before you today. I am Marc 
Pearl, president and CEO of the Council, a not-for-profit, non-partisan 
organization of the leading companies that deliver homeland security 
solutions to the marketplace. The Council works to ensure that the 
perspective, innovation, expertise, and capabilities of the private 
sector are fully utilized in our Nation's security, as well as 
recognized and integrated with the public sector. Council members 
employ more than 3 million Americans in all 50 States. We are honored 
and proud to work alongside civilian, defense, and intelligence agency 
leaders in support of their strategic initiatives through our 
individual and collective expertise in technology, facility and 
networks design and construction, human capital, financial management, 
technology integration, and program management. Only when there is 
substantive engagement between the Government and the private sector 
can we successfully deliver effective, efficient, and fiscally 
responsible high-quality solutions to our citizens.
    At the outset, we want to express our appreciation to the 
subcommittee and the Members of the entire Homeland Security Committee 
for your leadership on the full range of critical issues associated 
with improving the effectiveness of the laws and programs that would 
serve to make our Nation safer and more secure. A major part of that 
effort is the recognition that only when Government and industry are in 
direct communication and cooperation can we truly create a ``culture of 
readiness and of preparedness.''
    Congress must continue to take the responsibility to encourage 
constant, open, and reliable communication between industry and 
Government to achieve its mission. Additionally, we look to Congress to 
provide the oversight and support necessary to ensure that we 
collectively as a Nation maintain our continued vigilance and 
preparedness, and are fully utilizing all the tools at our disposal.
    Needs shift, priorities are altered, and threats continue to 
evolve. Over the past decade we have--all too often--found ourselves in 
a reactive posture, responding to the crisis du jour. We also must 
focus on the need to be proactive and nurture an environment that puts 
our research and development into an anticipatory posture.
    That was the intent of Congress when it enacted the Support Anti-
Terrorism by Fostering Effective Technologies (SAFETY) Act. Congress 
gave industry solutions providers a valuable legal tool to further 
encourage the innovation, implementation, and deployment of 
technologies that would serve to make our Nation safer and more secure.
    The holding of this hearing today--the first specifically on this 
topic in 5 years--is allowing the Department of Homeland Security (DHS) 
and industry to join with you in giving voice to an important program 
that helps to give our Nation the ability to provide effective 
deterrent measures against those who would seek to destroy or kill 
innocent citizens.
    The focus of the Council's testimony today is to provide the 
subcommittee with industry's collective perspective on the SAFETY Act 
and how we can work together to: (1) Improve the Process; (2) Achieve 
its Priorities; and (3) Ensure Greater Public Support.
                        a more effective process
    Throughout its brief history, the SAFETY Act has seen many peaks 
and valleys with respect to the amount of effort required to obtain the 
protections it provides to companies that have gone through the 
application process. Initially--as could be expected from any new 
administrative review process--the ability to obtain SAFETY Act 
protections was a lengthy and complicated process. Applications 
languished for months on end, and the level of detail expected by DHS 
was exceptionally difficult to supply. This led many companies to back 
away from the SAFETY Act process because the route to these protections 
was too arduous for the ultimate benefits.
    DHS has since worked to revise and streamline its review process 
and set in place more formal and reliable review mechanisms. The 
Science & Technology (S&T) Directorate--tasked with implementing the 
SAFETY Act--has put forth new procedures indicating recognition that 
the application process is a collaborative one with the Office of 
SAFETY Act Implementation. As a result, they are reporting that 
approval has been granted to a larger number of applicants, including 
some innovative anti-terror services like commercial shopping center 
security guards and professional security certification programs. DHS 
has indicated a desire to continue on the path of managing a reliable 
and thorough review process while showing greater sensitivity to the 
potential burden to applicants. We are desirous of seeing as 
streamlined a certification process as is feasible and reasonable, and 
the implementation of the Act in a full and complete fashion.
    We are also concerned that the bases for technical evaluations of 
technologies for SAFETY Act purposes have not been as consistent or 
transparent as they could or should be. DHS should be encouraged to 
refrain from applying inconsistent criteria in their technical 
evaluations.
    Having said this, however, the SAFETY Act review process must be 
rigorous, thorough, and conclusive, in order that, should the 
utilization or performance of a product or service be challenged, there 
is a strong review record in place. A comprehensive documentation 
process will alleviate any review concerns and reinforces the Council's 
support for the underlying intent and foundation of the Federal law--to 
help ensure the widespread deployment of anti-terrorism products and 
services. It is critical to have a review process that establishes a 
strong presumption of reliability, inspires confidence that the 
approved product or service truly has a utility against terrorism, and 
encourages customers to utilize and deploy approved technologies.
    Industry recognizes that the SAFETY Act--in some ways--takes S&T 
out of its ``comfort zone'' of engineering and scientific research. But 
DHS must understand and recognize that the SAFETY Act it is charged 
with administering is fundamentally a legal, not a scientific, 
engineering or technical merit program. The certification process does 
not require a detailed review of systems, but a determination with 
reasonable certainty that a product, technology, or service is useful 
and effective against terrorism. Congress never intended to have a 
SAFETY Act-certified solution be the most useful or most effective tool 
against terrorism. We cannot let the perfect be the enemy of the good.
                       more effective priorities
    The SAFETY Act was meant to provide an incentive to the private 
sector to continue to research, develop, deploy, and utilize anti-
terror technologies to best protect our Nation, its citizens, and 
critical assets. If utilized fully, the SAFETY Act encourages industry 
to continue to innovate. Has it been marketed as successfully as it 
could within Government and to the business community at large?
    Unfortunately, there has been a negative trend of reductions in the 
total number of SAFETY Act applications and approvals in recent months.
    SAFETY Act-certified technologies are suggested as part of the 
Federal acquisition process, but DHS could further improve efforts to 
educate Federal-contracting officials regarding the Act and its related 
changes to the Federal Acquisition Regulation (FAR). Implementation of 
the Act could also be better aligned with the Federal acquisition 
process, including eliminating redundancies in and expediting technical 
evaluation of SAFETY Act applications relating to products and services 
procured by DHS and other Federal Government entities.
    The Department should also vigorously publicize the value of the 
SAFETY Act to the business community at large, and continue to work 
with solutions providers in streamlining the application process. It 
should also work more closely with third parties--such as the risk 
management industry--to better explain the value of the provisions. As 
a result, this could have a subsequent positive effect on the 
underwriting process.
    By making the SAFETY Act a higher priority of the administration, 
and better promoting it within Government and to the business 
community, a greater number of beneficiaries will recognize the 
benefits of the Act and industry can better understands what to expect 
from a successful application.
                         greater public support
    The Council and its members are committed to increasing the 
understanding and further deployment of SAFETY Act-approved 
technologies, and encouraging a strong and responsible application 
process that gives confidence in the products and services granted 
SAFETY Act protections.
    The focus of attention regarding successful implementation of the 
SAFETY Act should not be on its limiting liability, but rather on how 
it encourages greater and more widespread deployment of technologies 
that could deter terrorism and protect our citizens. Everyone loses if 
certified technologies are not more fully deployed and the benefits of 
the Act are not better publicized. Our Nation would be left with fewer 
safeguards, and companies that do develop or deploy such technologies 
would be open to limitless litigation.
    Congress' role--as you are doing through this hearing today--is to 
encourage constant, open, and reliable communication between industry 
and Government. Additionally, Congress must continue to provide the 
oversight and support necessary to ensure we collectively as a Nation 
concerned about continued vigilance and preparedness are fully 
utilizing all the tools at our disposal.
    Lastly and briefly, transportation security; border security; and 
the protection of people, facilities, goods, and networks, all have an 
international component that requires cooperation and communication 
among all our country's friends and allies. Promoting the benefits of 
the SAFETY Act--its incentives to develop, implement, and deploy the 
best of breed tools and solutions to fight terrorism--no matter where 
they are developed, manufactured, or deployed would be enormously 
helpful in our fight to protect our own homeland. The Act provides 
protections for the manufacturers and providers of certified 
technologies and services for cases under the jurisdiction of the U.S. 
court system, but no such protections exist outside U.S. borders. Is it 
foolish to ask our strategic partners for enhanced international 
cooperation on third-party liability protections for terrorist attacks? 
Shouldn't this issue be put on the agenda when Government officials 
meet with their Legislative and Executive branch counterparts--
particularly now that we all recognize that terrorism is a global 
threat and homeland security a global mission?
                               conclusion
    ``Success'' against those who would seek to destroy our way of 
life, wreak havoc on our economy, and kill innocent citizens will 
ultimately depend on our ability to fully implement and deploy 
technologies and tools that fully deter and prevent a devastating 
catastrophe.
    To achieve greater and active participation by everyone is not just 
the responsibility of Congress to enact the necessary laws, the 
administration to develop real, tangible, and ``embraceable'' 
regulations and programs to carry them out, industry to develop and 
help deploy the solutions, or the greater citizenry to take on its 
share of the responsibility to be vigilant. It is a combination of all 
of the above. The SAFETY Act is but one vital tool that helps us become 
a safer and more secure Nation.
    On behalf of the Homeland Security & Defense Business Council, I 
once again express our appreciation for the opportunity to provide our 
comments on the important issues before the subcommittee. The Council 
and its members pledge to provide this committee and the Department 
with the appropriate support, expertise, and input needed to achieve 
mission success.
    We are prepared to work with the subcommittee and DHS to mutually 
achieve an environment where an improved and robust SAFETY Act is fully 
embraced and marketed the Department in an atmosphere ensuring a sound, 
fair, and responsible certification process.

    Mr. Lungren. Thank you very much, Mr. Pearl.
    Mr. Finch.

  STATEMENT OF BRIAN E. FINCH, PARTNER, DICKSTEIN SHAPIRO, LLP

    Mr. Finch. Chairman Lungren, Ranking Member Clarke, 
distinguished Members of the committee, it is an honor to 
appear before you today to discuss the current implementation 
of the SAFETY Act by the DHS Science and Technology 
Directorate.
    Post-9/11, Congress deliberately chose to offer the 
liability protections of the SAFETY Act to ensure a healthy 
anti-terrorism marketplace. Not 3 hours ago, I was reminded of 
those by the former Speaker of the House, Dennis Hastert.
    Since it was enacted, the SAFETY Act has been, relatively 
speaking, one of DHS' most successful programs. Without it, 
numerous critical products and services would not be in the 
marketplace. The SAFETY Act is not an absolute success, 
however. While 400-plus products and services have received the 
designation or certification, that number should be in the 
thousands.
    The good news is that not much needs to be done to turn the 
SAFETY Act into a true success. The statutory and regulatory 
language governing the SAFETY Act arms DHS with broad authority 
to rapidly and effectively process applications and implement 
them in a transparent, consistent, and accountable manner that 
will unleash its potential.
    I must state that this hearing is absolutely essential, 
because if S&T gets only one thing right, it has to be the 
SAFETY Act. Without a successful SAFETY Act program, S&T will 
not be moving forward completely in its mission to help deploy 
effective technologies into the marketplace.
    SAFETY Act is more critical than ever, because companies 
can now easily be held liable for damages, if they fail to take 
reasonable steps when it is shown that they knew or should have 
been aware they faced possible terrorist attacks. 
Unfortunately, ``reasonable'' can mean anything, including even 
the most stringent security measures.
    All of this came from the decision in New York holding 
victims two-thirds liable for the death and destruction caused 
by terrorists, leaving the other third to others, including the 
terrorists themselves. Also include that when litigation 
happens following a terrorist attack, security providers will 
be the ones to have their pockets turned inside out.
    Terrorists are not going to honor damages awards stemming 
out of a civil lawsuit--plus, of course, right now there is 
only one group with a proven record of tracking down 
terrorists, and I feel confident in saying that the Navy SEALs 
are unavailable to act as process servers.
    Given the realistic possibility of ruinous litigation 
following a terrorist attack, the question then becomes: How 
best can the SAFETY Act be implemented? Let us remember that 
DHS itself stated, ``The purpose of the Act is to ensure that 
the threat of liability does not deter potential manufacturers 
or sellers of antiterrorism technologies from developing, 
deploying, and commercializing technologies from saving 
lives.''
    DHS must heed its own words. It can do so by first working 
to try and have each application approved. At times there is a 
sense that applications are presumptively denied, unless there 
is an overwhelming case for approval. Right or wrong, that has 
been a powerful disincentive for current and potential 
applicants.
    Second, the Department should accept all sorts of data 
demonstrating effectiveness, not just the kind that is 
generated when a product has been through the wringer of a 
Federal procurement.
    Third, DHS should manage the SAFETY Act with relatively few 
boundaries in what can be approved. Applications for products 
or services that could protect sports facilities, hospitality 
chains, iconic structures, technology support outside the 
United States, or otherwise would protect against terrorism, 
should all be eligible for approval.
    Some simple process changes would go far in creating a 
customer-friendly SAFETY Act. First, DHS should increase 
transparency. Even the most experienced applicants face a 
guessing game at times as to what is required of them to 
navigate the SAFETY Act process. That is terribly frustrating 
and gives companies serious pause as to whether they want to 
participate. DHS should be clear about what information it 
wants and should work with applicants to develop it.
    Second, the SAFETY Act needs consistency. Companies have 
complained about similar applications being subjected to 
different standards of review, and that has to stop. Also, the 
renewal phase of the SAFETY Act has turned into something akin 
to a de novo review. That is difficult to understand, 
especially in circumstances where the applicant has done 
nothing wrong in the intervening years.
    Accountability is a third factor. It must be clear to all 
who actually sets the metrics for a SAFETY Act application and 
that there is a mechanism in place to ensure that they are 
being followed. Such accountability will reduce instances of 
unconstrained fact-finding and will allow parties to know who 
they need to work with in order to get on the same page.
    Another point is that certification under the SAFETY Act 
has become far less common. Whatever the reason, it is 
sufficient to say that this trend should be reversed 
immediately.
    One last note is that--and this perception might exist 
among some--that once a SAFETY Act award has been issued, it is 
irrevocable. Simply put, we all should remember that Federal 
courts will play a strong adjudicatory role when the time comes 
for litigation.
    Acknowledging the limited budgets facing our Government, 
now more than ever DHS must use the SAFETY Act to incentivize 
the private sector. Doing so will help promote some of the 
highest priority areas for DHS, including matters this 
committee has jurisdiction over, such as C-TPAT and 
cybersecurity. We must all work together to create a 
transparent, consistent SAFETY Act imbued with accountability.
    I thank the committee for the opportunity to testify and 
look forward to taking your questions.
    [The statement of Mr. Finch follows:]
                  Prepared Statement of Brian E. Finch
                              May 26, 2011
                            i. introduction
    Chairman Lungren, Vice Chairman Walberg, Ranking Member Clarke, and 
distinguished Members of the subcommittee, it is an honor to appear 
before you to discuss the current implementation of the Support Anti-
Terrorism by Fostering Effective Technologies (``SAFETY'') Act by the 
Science and Technology Directorate of the Department of Homeland 
Security (``DHS''). I will also discuss how the SAFETY Act can be 
utilized so that its full potential is reached both by DHS and the 
private sector.
    Since the SAFETY Act was enacted nearly 9 years ago, it has 
become--relatively speaking--one of the most successful programs 
managed by DHS. Without the liability protections offered by the SAFETY 
Act, numerous critical products and services would not be in the 
marketplace, defending American citizens and property. Moreover, the 
intrinsic value of the SAFETY Act and its liability protections is 
easily demonstrated by the numerous customers of anti-terrorism 
products and services that strongly encourage--or even require--that 
the anti-terror tools they purchase must have SAFETY Act protections. 
One cannot step into an airport, public building, stadium, or 
commercial shopping centers without likely encountering a SAFETY Act-
Designated or -Certified product or service.
    Still, objectively speaking, much remains to be done in order to 
make the SAFETY Act an absolute success. While several hundred products 
and services have received a Designation or Certification, that number 
in reality should be in the thousands. For a variety of reasons I will 
detail, too many products and services that remain on the sidelines of 
the SAFETY Act process. Through my remarks today I will detail why the 
SAFETY Act is so critical to the security of the Nation, as well as 
offer some suggestions on ways the implementation of the SAFETY Act can 
be improved so that it will be viewed as an unqualified success.
    I will also state up front that not much needs to be done to turn 
the SAFETY Act into a true success. The statutory and regulatory 
language governing the SAFETY Act is robust and well-developed. It arms 
DHS with the broad authority to rapidly and effectively process 
applications, and sets up a framework to inspire confidence in that 
review. Key then to fully unlocking the SAFETY Act is to make certain 
that the original intent of the SAFETY Act is honored and the program 
is implemented in a way that is transparent, consistent, and ensures 
accountability for DHS in its management of the program.
    I would also be remiss if I did not mention that the SAFETY Act is 
perhaps the most critical program administered by the Science & 
Technology Directorate of DHS. If the Science & Technology Directorate 
is truly going to encourage the deployment of technologies to combat 
terrorism, it must continue to expend the resources necessary to make 
the SAFETY Act a priority. This hearing is absolutely essential then, 
because if the Science and Technology Directorate gets only one thing 
right, it has to be the SAFETY Act. Without a successful SAFETY Act 
program in its portfolio, it will have lost a large amount of 
credibility with the private sector and will have failed in executing 
one of its core missions as defined by the Homeland Security Act of 
2002.
ii.why the safety act is still a critical incentive for the deployment 
                     of anti-terrorism technologies
    The motivation for the SAFETY Act being included in the Homeland 
Security Act of 2002 could not be clearer. At that time the country was 
still reeling from the devastating attacks of September 11, 2001. 
Buildings had to be rebuilt, wounds had to be healed, and the Nation 
was struggling to determine how best to prepare to defend against or 
respond to future terrorist attacks. Even when DHS was stood up, it was 
still going to have limited authority and resources to develop and 
deliver security solutions. Ultimately then, the Nation was going to 
have to depend on solutions developed and deployed by the private 
sector to protect itself from terrorist threats.
    The private sector was well aware of the demands placed on it, and 
its representatives were eager to help provide the tools needed to stop 
another terrorist attack. Given the size and scope of the destruction 
caused in the September 11 attacks, however, companies were forced to 
reflect on the significant liability that could follow a terrorist 
attack. Such concerns reached the point that makers of anti-terrorism 
technologies began to seriously consider whether they could deploy 
existing or possible solutions. After all, a few thousand dollars 
earned on a risk assessment paled in comparison to the untold millions 
of dollars in costs that could arise from a court finding that their 
work was inadequate, and thus are responsible for the damages suffered 
in a terrorist attack.
    The risk mitigation options available to anti-terror solution 
providers were few and generally inadequate: Insurance--especially 
immediately after September 11, was sparsely available and uncertain in 
its coverage, indemnification from customers was also rarely available, 
and only served to shift risk, and Government bailouts in the event of 
another act of terrorism were considered highly unlikely. In light of 
this list of undesirable alternatives, Congress was faced with the 
stark choice of either allowing the anti-terror solution market to sink 
to an unacceptably small size or to take proactive measures to mitigate 
liability. Congress, in its wisdom, chose to offer liability 
protections in the form of the SAFETY Act. In other terms in the battle 
between preserving opportunities for massive litigation or pushing out 
solutions that would prevent terrorists from attacking, Congress chose 
the latter by creating the SAFETY Act.
    One would have hoped the intervening years would have served to 
lessen concerns about crushing liability from terrorist events. 
Unfortunately, the legal landscape for providers of anti-terror 
solutions has become even more fraught with danger. Perhaps the most 
troubling development was the decision related to the liability of the 
Port Authority of New York and New Jersey arising from the 1993 attack 
on the World Trade Center. In 2008, a New York appellate court upheld 
the liability of the Port Authority for injuries and deaths resulting 
from that attack. That decision set a dangerous precedent that gave 
pause to companies throughout the United States.
    Specifically, the New York courts created a whole new standard of 
liability under which it would be difficult--if not impossible--for 
defendants to avoid liability after a terrorist attack. The court found 
that if defendants knew or should have been aware that they were under 
threat from a terrorist attack, they must then take ``reasonable'' 
steps to mitigate the potential for a terrorist event.
    Under the ``knew or should have been aware'' standard, facility 
owners now face the unenviable task of deciding whether they are ``on 
notice'' of the possibility of terrorist events taking place at their 
property. This presents endless opportunities for plaintiffs to 
establish that a defendant should have been aware of terrorist threats. 
Even something as seemingly innocent as the provision of extra anti-
terrorism funding for the geographic region the defendant resides in 
could satisfy this notice requirement.
    Once notice has been established, a defendant then must undertake 
``reasonable'' steps to mitigate a potential terrorist attack. While a 
seemingly common-sense requirement on its face, the devil here is in 
the details. The Court made it clear that ``reasonable'' mitigation 
steps could be ones that were more burdensome than anything the 
defendant had previously considered, and could go all the way up to 
situations where a defendant had to enact even the most stringent 
security recommendations provided to it. The end result of this 
decision is that now potential terrorist targets have no assurance that 
any measure they offer or seek to implement will be considered 
``reasonable,'' and thus the door to liability is far too open for 
anyone's comfort. And, let's not forget that all this stemmed from a 
decision where it was held that the Port Authority was held two-thirds 
liable for the death and destruction caused by terrorists, leaving the 
one-third to others--including the terrorists themselves.
    Liability concerns do not end there, however. Far from it. 
Additional events have shown that when it comes time for litigation 
following a terrorist attack, security providers will inevitably be the 
ones to have their pockets turned inside out. Consider this reasonable 
proposition for a moment: Why not seek recovery from the terrorists? 
After all, they were the ones who committed these terrible events. The 
simple answer is that holding a terrorist accountable in a civil 
lawsuit has a very low probability of success. Suits have been filed 
against terrorists and their sponsors, and inevitably fail because--to 
no one's great surprise--the terrorists chose not to respond to the 
complaints. The litigation did not even proceed to answering 
fundamental process questions: As of right now there is only one group 
with a proven record of tracking down terrorists, and I feel confident 
in noting that U.S. Navy Seals are not available to serve civil action 
complaints.
    Even in the rare cases where litigation proceeds without the 
presence of defendants, recovery is still essentially impossible. 
Successful litigation against state sponsors of terrorism, where 
billions of dollars have been awarded to plaintiffs, still remains an 
abstract process with little chance for realistic recovery. Even the 
presiding judges admit that such victories are symbolic as the sponsors 
are usually estranged from the United States, deny responsibility for 
the attack anyway, and once again chose not to respond to the lawsuit.
    Finally, there are these simple facts: Civil litigation following 
terrorist attacks will happen, it will be lengthy, and it will be 
extraordinarily expensive. A survey was conducted a few years back of 
persons who were eligible to participate in the 9/11 victims 
compensation fund or actually did so. Out of that survey came some 
salient points, including:
  <bullet> Many people who took payments from the fund stated that if 
        they could do it again, they would have elected to not waive 
        their rights and instead would have sued. Several stated that 
        they felt ``dirty'' after taking the money;
  <bullet> Families who chose to sue various companies whose products 
        were involved in the 9/11 attacks viewed the Compensation Fund 
        as ``hush money.'' Some participants went so far as to say that 
        ``People were being paid off not to go to court''; and
  <bullet> Those same people viewed litigation as a way to get 
        accountability. Some noted that ``What I'm looking for is 
        justice . . . someone held accountable . . . there are people 
        who did not do their job.''
    Not in that survey, but well-known is that the defendants have been 
forced to spend hundreds of millions of dollars to defend themselves 
from claims that most would agree will likely be denied at the end of 
the day.
    Thus, the totality of that situation then is as follows: The civil 
liability environment for providers of anti-terrorism products and 
services is far more toxic than ever; dangerous standards of care are 
being established; and expensive and protracted litigation following a 
terrorist attack--against the people who tried to stop the attack, mind 
you--is now a virtual certainty. Therefore the need for the effective 
and efficient implementation of the SAFETY Act is greater than ever.
  iii. improvements in the safety act application and decision-making 
                                process
A. The original intent of the SAFETY Act should be followed
    Given the realistic possibility of ruinous litigation following a 
terrorist attack, the question then becomes how best can the SAFETY Act 
(which represents the only realistic solution to that threat) be 
implemented to mitigate such events? As is clear from the statute and 
its implementing regulations, the purpose of the SAFETY Act is to 
preempt such litigation following a thorough, meaningful, but not 
unduly burdensome review of how the given technology works and is to be 
deployed. The Department itself stated in the Preamble to the Final 
Rule that ``[t]he purpose of the Act is to ensure that the threat of 
liability does not deter potential manufacturers or sellers anti-
terrorism technologies from developing, deploying, and commercializing 
technologies from saving lives.'' 71 Fed. Reg. 33,147, 33,148 (June 8, 
2006). The Department even took an unassailable position on its view of 
the intended purpose of the SAFETY Act, stating that:

``Congress was clear, both in the text of the SAFETY Act and in the 
Act's legislative history, that the SAFETY Act can and should be a 
critical tool in expanding the creation, proliferation, and use of 
anti-terrorism technologies.''

71 Fed. Reg. at 33,147.
    If the SAFETY Act is to succeed, the Department needs to fully 
commit to implementing the Act in a manner consistent with its own 
interpretation of its intent. This would include ensuring that all 
technologies, whether novel or commonplace can obtain SAFETY Act 
protections so long as it can be shown that they have some type of 
utility in deterring, defending against, responding to, or mitigating 
acts of terrorism.
    This requires a commitment from DHS in several areas. First, the 
Department should work to try and have each application approved. This 
would require the Department adopting a policy of presuming that each 
application it receives merits approval. While this might sound like an 
obvious policy, at times there has been a sense that applications are 
presumptively denied unless an applicant can build a strong case for 
approval. Right or wrong that perception has existed, and it has acted 
as a disincentive for potential and current applicants as well as for 
current applicants. DHS should understand that the Act as written 
favors approvals, and that Congressional intent in this area has not 
changed at all. Obviously there will be applications that simply will 
not merit SAFETY Act protections, but there should also not be a 
perception that obtaining SAFETY Act protections for proven 
technologies will involve a long and arduous review process.
    Second, the Department should actively encourage applications of 
all sorts, not just those for technologies that have been through some 
form of Federal vetting or procurement process. At times there has been 
a sense that an application only has a fair chance of success if it has 
been thoroughly vetted or deployed by the Federal Government. In part, 
that sense has stemmed from the concern that often times the Department 
will essentially rely only on very specific efficacy data collected 
from customers. Typically that data does not exist for commercial 
deployments, and so applicants are left scrambling to assemble it, or 
have a difficult time collecting it from their Government customers. 
DHS needs to work collaboratively with applicants to help them 
determine what information is needed, and also appreciate what can 
realistically be collected. This would include DHS gaining a realistic 
sense of how data is kept by businesses, and taking the position that 
the absence of information that would normally be collected during a 
procurement is not a barrier to SAFETY Act protections.
    Third, DHS should recall that Congress put in its hands a powerful 
liability management tool with the intent of the Department approving a 
large variety of applications. Too often applicants have walked away 
with the impression that the SAFETY Act process is reserved for 
products with a proven track record. Companies that deploy security-
related services in particular have felt that the process is too 
oriented towards products, and companies that deploy technologies to 
risky areas--especially overseas--have expressed concern that DHS has a 
greater hesitancy to approve such precedent-setting applications.
    The attitude should be the exact opposite. DHS should manage the 
SAFETY Act with relatively few boundaries on what can be approved. By 
way of example, applications for products or services that protect 
sports facilities or hospitality chains, provide compliance with 
security regulations, protect Americans and other innocent persons 
outside U.S. borders, or otherwise protect against terrorism in some 
way shape or form should all be eligible for approval. This attitude 
would be far more reflective of the intent of the SAFETY Act, which is 
to ensure the widespread deployment of anti-terrorism technologies.
B. Greater focus should be placed on transparency, consistency, and 
        accountability
    From a process-oriented perspective, DHS has gone through periods 
where the application process was smooth, predictable, and resulted in 
a ``customer-friendly'' experience. At other times, some would say that 
the Department has moved away from such an experience. I am certain 
that Members of this committee and others have heard complaints to that 
effect.
    In order to combat such concerns--whether real or otherwise--I 
would propose some simple solutions that will go far in creating a 
smooth and robust SAFETY Act application process. The key theme for 
these suggestions is to have an application process where applicants 
know that they will be working with DHS in a collaborative manner 
toward the common goal of getting the application approved.
    First, DHS should aim to significantly increase transparency 
related to the SAFETY Act application process. Too often applicants 
face a guessing game as to what is required of them in order to 
successfully navigate the SAFETY Act application process. Even if a 
company is familiar with the application process, each time a new 
application is submitted they potentially face a path with many twists 
and turns. This leads to great frustration among applicants as they 
have undoubtedly invested significant time and effort in their 
application, yet they are simply told in return that there are numerous 
pieces of missing information to be presented before DHS will even 
review the application.
    A key note for the committee to remember is that often takes two or 
three tries before DHS accepts an application for formal review. As the 
committee is surely aware, DHS will not conduct a substantive review of 
an application unless it finds that it is ``administratively 
complete.'' Apparent, the threshold for an application being complete 
is that there is enough information provided so that the Department 
believes it can complete its full review and render a decision within 
the next 90 days.
    While this may not seem like a significant obstacle, it truly is a 
painstaking and time-consuming process. Companies will put together 
application packets consisting of nearly 100 pages of text, backed up 
by dozens of supplemental exhibits and references from numerous 
customers. Far too often, despite all that work, the application is 
deemed ``incomplete,'' and the applicant most go back and start the 
application process over again. This is terribly frustrating to 
applicants, and I can tell you from personal experience that it gives 
companies serious pause as to whether they would like to resubmit an 
application.
    Even after an application is found to be complete, companies are 
still regularly asked for large amounts of information. While it is 
natural for DHS to request follow-up information related to the 
application, these requests are often lengthy, and explore areas not 
always relevant to the application's subject matter.
    With that in mind, the health of the SAFETY Act would benefit from 
much greater transparency on the part of DHS. The SAFETY Act should not 
be administered like a closed-book exam, with little to no guidance as 
to what information the teachers are seeking. Instead, the application 
process should be administered in a way that encourages an active 
dialogue between applicant and reviewer, where each party understands 
exactly what the other is looking for and they work together to develop 
acceptable answers. Moreover, if there is a change in the expectations 
of DHS, that should be made clear to the applicant as quickly as 
possible. Too often standards shift as an application proceeds through 
review, making an already stressful situation even more difficult. 
Fundamental to all this, however, is DHS maintaining clear lines of 
communications with applicants about expectations. Building such a 
partnership will go a long way to improving the health of the Act.
    A second needed area of progress for the SAFETY Act relates to 
consistency. One of the most frustrating elements for SAFETY Act 
applicants is the apparent disparate treatment various applicants 
receive. Concerns have been expressed over the years that the success 
of an application depends as much on when the application was submitted 
as it does on the substance included. Companies in particular have 
expressed frustration that similarly-situated companies have received 
SAFETY Act protections while they have struggled to eke out even the 
smallest of protections through the approval process.
    Such concerns are more than academic. Acceptance of the SAFETY Act 
among customers has reached the point where holding SAFETY Act 
credentials is critical to earning or keeping security-related 
business. Because of such competitive concerns, it is vital that 
applicants know that they will not unnecessarily be subjected to a 
higher standard of review than other applicants. Closer scrutiny for 
similarly-themed applications should occur in situations where it is 
clearly merited, such as where it is obvious that the applicant has 
repeatedly had material performance issues. Even then DHS should only 
look to see if the applicant has demonstrated its ability to be useful 
and effective against terrorist acts, and should not look to create 
some sort of higher threshold of proof for their application.
    The renewal phase of the SAFETY Act process also lacks consistency. 
As a reminder, SAFETY Act protections must be renewed periodically, 
typically every 5 years. The renewal process was created to ensure that 
technologies continue to be effective and useful against terrorism. At 
times, unfortunately, the process has turned into something akin to a 
de novo review, requiring applicants to essentially start from scratch 
with respect to proving the merits of their application. I have seen 
levels of protection fall from Certification to Designation, or even 
SAFETY Act protections being rescinded. Such changes in protection are 
difficult to understand, particularly when the applicant has done 
nothing that could be considered as negatively impacting the usefulness 
or effectiveness of their technology. It only seems appropriate then 
that renewal applications as well should not be subjected to constantly 
shifting review standards.
    One other critical point to emphasize with respect to the 
implementation of the SAFETY Act is that there should be a degree of 
accountability with respect to the approval process. By this, I mean 
that it should obvious to an applicant who is establishing the criteria 
for approving an application, and that these criteria are the ones 
being utilized in the actual review.
    Many times it is unclear to an applicant who is actually making 
decisions as to the standards being utilized or metrics that must be 
met before an application will be approved. While it is well-known that 
the Office of SAFETY Act Implementation is charged with conducting a 
substantive review of an application, it is not clear who is 
establishing the metrics used to determine whether the application will 
be approved. Similarly it is unclear whether there is a mechanism in 
place that will ensure that those metrics are being followed, or if 
they are deviated from that there is a compelling reason for doing so.
    Establishing a level of accountability in the SAFETY Act process, 
particularly one that is visible to the applicant community, is 
therefore critical. Applicants need to understand who ultimately is 
making decisions about applications, and have a level of assurance that 
decisions are not being made simply based on administrative records 
developed through unconstrained fact-finding. Just as importantly, 
everyone--including Congress--would benefit from knowing who ultimately 
is setting the requirements for approval. By knowing who is in charge 
of that process, there can be one central point of contact for 
determining whether that person has set metrics that are reasonable and 
consistent with the original intent of the SAFETY Act. And this will 
also work to the benefit of DHS, as it will allow both the private 
sector and Congress both to know who they need to interface with in 
order to make sure that all parties are on the same page with respect 
to how the Act should be implemented.
    One last point with respect to the implementation of the SAFETY Act 
is that the end goal of any review should be the Certification of the 
technology. As time has passed, Certifications under the SAFETY Act 
have become less common. Whatever the reason, it is sufficient to say 
that this trend should be reversed immediately. Awarding Certifications 
is an important signal that the technology is useful and effective. 
Certification awards also signal that the Department fully believes in 
the purpose of the SAFETY Act, namely that the threat of liability 
should be eliminated. While there are certainly cases where a 
Designation is merited, the Department should be working with 
applicants to find ways to move an approval to the level of 
Certification.
                            iii. conclusion
    The threat from terrorism has not gone anyway nor, sadly, is it 
likely to go away any time soon. Given that ever-present threat, it is 
absolutely vital that DHS take every step possible to help ensure the 
safety of American lives, infrastructure, and treasure. Acknowledging 
the limited budgets facing our Government, now more than ever DHS must 
do what it can to incentivize the private sector to develop and fully 
deploy anti-terror solutions. At this time, the best way it can do so 
is by unleashing the fantastic potential contained within the SAFETY 
Act. In terms of the most effective way to immediately transition 
technologies into the hands of the private sector and ensure that they 
are used, the SAFETY Act is the greatest resource DHS has at its 
disposal.
    Using that resource will help promote some of the highest-priority 
areas for DHS, including matters this committee has jurisdiction over 
such as Chemical Facility Anti-Terrorism Standards and cybersecurity, 
where DHS should be making active links to expedite SAFETY Act 
protections. Most of all, I would urge DHS, this committee, and the 
private sector to come together so that a revitalized program can 
emerge, one that is transparent, consistent, and imbued with 
accountability. There are so many solutions that should be wearing a 
badge of SAFETY Act approval but do not as of yet. That can only happen 
if DHS fully supports the SAFETY Act and embraces the original intent 
of Congress, specifically that this is a program intended to fully 
support the deployment of useful and effective technologies.
    I thank the committee for the opportunity to testify and will be 
happy to take any questions at this time.

    Mr. Lungren. Thank you very much.
    Mr. Boylan.

STATEMENT OF SCOTT BOYLAN, VICE PRESIDENT AND GENERAL COUNSEL, 
                     MORPHO DETECTION, INC.

    Mr. Boylan. Chairman Lungren, Ranking Member Clarke, thank 
you for inviting me and having me speak here.
    My company, Morpho Detection, is one of the leading 
providers to the Department of Homeland Security of explosive 
detection technology. We are a pioneer in explosive detection 
technology, and we are also a pioneer in the SAFETY Act. SAFETY 
Act is extremely important to our business, because when you 
think about what our business is, it is very risky.
    What we do every day, almost every hour of every day in the 
United States, is we scan bags for explosives that get onto 
commercial aircraft, commercial aircraft that we all in this 
room probably fly at one time or another. The risk of error is 
quite large.
    My company, when it was acquired from GE by Safran, one of 
the pre-conditions to that transaction was transfer of the 
SAFETY Act certifications. Closing would not occur without that 
happening. I have to say one of the success stories, I think, 
we were one of the first companies to do that, and the folks 
sitting behind me here from the SAFETY Act were very, very 
helpful in achieving that and getting our closing done. So that 
is positive.
    Most of my technologies, our company's technologies, are 
certified by the Transportation Security Laboratory. At one 
time it was a part of TSA. It is now part of Science and 
Technology.
    The process of that certification can take over a year. It 
involves testing. It involves providing multimillion-dollar 
pieces of equipment for free to the Government. At the end of 
the process, we have a certification. What that certification 
does for us is allow us to sell into the homeland security 
market.
    I have had the situation with SAFETY Act certification 
where I have had certified technology that I hadn't had SAFETY 
Act certified. I have had the renewal of our CTX baggage 
screening technology take quite a long time and put us in a 
difficult position as to whether we could deploy new equipment, 
because we hadn't got the recertification of the explosive 
detection equipment that we were contracted to at the time to 
sell to the Department of Homeland Security.
    So our scanning devices actually seemed to have a higher 
standard for SAFETY Act certification. I have been informed 
that SAFETY Act certification is now a predicate--excuse me, 
TSL certification is a predicate to SAFETY Act certification.
    That is nowhere in the Act. I would expect that SAFETY Act 
certification would actually be less onerous than the testing 
and certification that our equipment undergoes.
    Second, the testing involves operational and reliability 
determinations for the equipment. The TSL does this, but 
recently for new products that we have developed, and one of 
which is deployed and has been deployed for over a year in San 
Jose airport, we have only gotten designation, not 
certification.
    We have certification for that equipment from the 
Transportation Security Laboratory, but we have designation 
from the SAFETY Act. That does not make any sense to me.
    I think it is possibly a misunderstanding of how the 
certification process is done by the TSL on the part of the 
SAFETY Act and the Science and Technology office that reviews 
these applications, because they keep telling me that there is 
not enough data on reliability--by the way, that is never 
mentioned in the Act, reliability--whereas that is tested and 
evaluated by the very same Science and Technology department 
that the SAFETY Act office is a part of.
    So my suggestion is if I have certification from one part 
of the Science and Technology Directorate, why can't SAFETY Act 
certification flow relatively easily from that? That is just 
designation.
    Like I said, the coverage that is provided to us from the 
SAFETY Act is extremely important to our business. It is a very 
risky business, and the caps on the liability--we don't have 
immunity from liability, we have caps. We are still responsible 
for multi-millions of dollars that we can get from insurance 
coverage.
    But without that, without that insurance, there are 
questions as to what direction our business will go and where 
we will invest. I think, like previous witnesses have said, 
this is easily fixed. I think there are just a few key 
directional points that the SAFETY Act office can be directed 
to, and we can have a much better process. Thank you.
    [The statement of Mr. Boylan follows:]
                   Prepared Statement of Scott Boylan
                              May 26, 2011
    Chairman Lungren, Ranking Member Clarke, and Members of the 
committee: Thank you for the opportunity to testify and for holding 
these hearings today on the Department of Homeland Security's 
implementation of the Support Anti-terrorism by Fostering Effective 
Technologies Act of 2002 (the ``SAFETY Act''). My name is Scott Boylan, 
and I am vice president and general counsel at Morpho Detection Inc. 
(``MDI''), a subsidiary of the Safran Group. MDI has more than 560 
U.S.-based employees and factories in California and Massachusetts. We 
are a leading supplier of explosives and narcotics detection technology 
globally and support Government, military, transportation, first 
responder, critical infrastructure, and other high-risk organizations. 
We integrate computed tomography (CT), Raman Spectroscopy, trace 
(ITMS<SUP>TM</SUP> technology), X-Ray and X-Ray Diffraction (XRD) 
technologies into solutions that deliver detection results quickly with 
a high degree of accuracy, while ensuring efficient security 
operations.
    MDI and our predecessor companies have a rich legacy in homeland 
security. After the Lockerbie tragedy, we were the first company to 
develop and deploy computed tomography-based explosives detection 
systems in partnership with the Federal Aviation Administration. Today, 
our technology is used throughout the United States to protect American 
citizens and infrastructure from terrorist attacks. The Transportation 
Security Administration relies upon MDI's technology to screen over a 
million bags each day for explosives. The State Department uses our 
technology to protect embassies and consulates around the world. The 
Department of the Interior protects National treasures, such as the 
Statue of Liberty, using our equipment. The Department of Defense 
protects military facilities and personnel with MDI equipment as a key 
part of their threat detection arsenal. We are proud of our work in 
developing innovative technologies to protect people and infrastructure 
around the world.
    MDI's core mission is to develop and provide anti-terrorism 
technologies. The protections that the SAFETY Act affords are integral 
to our business plan and investment decisions. We were one of the first 
companies to apply for SAFETY Act coverage and value our on-going 
partnership with the Department of Homeland Security. Today, I would 
like to discuss the value of SAFETY Act protections in encouraging 
development of new and innovative anti-terrorism products, discuss 
recent trends in SAFETY Act operations, and provide recommendations as 
we approach the 10-year anniversary of passage of the SAFETY Act.
                        value of the safety act
    The SAFETY Act legislation and implementing regulations provide 
incentives for the development and deployment of anti-terrorism 
technologies by creating a system of ``risk'' and ``litigation 
management.'' The purpose of the Act is to ensure that the threat of 
liability does not deter potential manufacturers or sellers of 
antiterrorism technologies from developing, deploying, and 
commercializing technologies that could save lives and protect the 
American people. As such, the SAFETY Act is a critical tool in 
expanding the creation, proliferation, and use of anti-terrorism 
technologies.
    In light of the potential liability MDI faces in developing and 
deploying anti-terrorism technology, MDI highly values the risk 
management and litigation management provisions of the SAFETY Act. We 
are not alone in this view. Investment decisions involve an evaluation 
of risk--SAFETY Act protections limit and define risk allowing 
investors to have confidence in their decisions. The transfer of SAFETY 
Act coverage, for example, was a pre-condition to closing when our 
company was sold by GE to Safran in 2009. This only serves to 
illustrate how important this coverage is to investment decisions.
                    recent trends in implementation
    The Department of Homeland Security's implementation of the SAFETY 
Act must be assessed with a view to the purpose of the legislation. To 
encourage technological innovation and to facilitate the fielding of 
technologies that support our Nation's homeland security efforts, 
Congress established a set of liability protections for technology 
providers so companies could develop and provide anti-terrorism 
technologies without the threat of crippling lawsuits. Congress 
deserves credit for recognizing the need for the SAFETY Act, and the 
legislation's risk management, and liability protection provisions are 
at least as important today as when the Act was originally promulgated. 
In fact, there is increased awareness of the importance of technology 
in tackling our staggering homeland security mission, including 
defending our land and sea borders; protecting key resources and 
critical infrastructure--including cyber resources; preventing 
chemical, biological, radiological, and nuclear (``CBRN'') attacks; and 
improving preparedness and emergency response capabilities. 
Unfortunately, DHS' recent SAFETY Act implementation efforts have 
raised serious concern about the Department's commitment to the program 
as well as questions as to whether the Department is administering the 
program in a manner consistent with Congressional intent and the Act's 
statutory and regulatory mandates.
    MDI's recent experience and communications with the Science & 
Technology Directorate concerning certain MDI SAFETY Act applications 
illustrate that the SAFETY Act application process is neither 
consistent nor ``user-friendly.'' Moreover, the manner in which the 
SAFETY Act is being implemented today is discouraging applicants from 
continuing to support the program--at the expense of the laudable 
objectives of the SAFETY Act. There is growing concern, not only at MDI 
but also among colleagues across industry who are engaged in developing 
and providing homeland security technologies, that efforts to implement 
the SAFETY Act have been compromised by an apparent lack of 
understanding or commitment to the goals that led to the promulgation 
of the SAFETY Act. For instance, there is particular concern regarding 
the sharp decline in the number of technologies receiving SAFETY Act 
coverage generally, and SAFETY Act Certification in particular. It is 
also clear that the SAFETY Act application process has become more 
protracted and burdensome.
    Our experience with the administration of the SAFETY Act by the 
Science & Technology Directorate over the past year has been 
particularly frustrating. Renewal of SAFETY Act Certification for our 
key product line of explosive detection technology for checked luggage 
was delayed beyond the regulatory required time limits.\1\ New product 
models in the same product line were only given SAFETY Act Designation, 
not Certification, for ``lack of operational test data'' in spite of 
the fact that all of these products had been extensively tested and 
their performance certified by the Transportation Security Laboratory 
(``TSL'') \2\ before being purchased and deployed by TSA. One of these 
new models had been operationally deployed and had scanned millions of 
bags that had been loaded upon commercial aircraft. The delay in 
Certification renewal forced us to consider whether we would deploy 
more machines without SAFETY Act coverage.
---------------------------------------------------------------------------
    \1\ MDI's SAFETY Act Certification renewal application filed in 
October 2010 was finally approved on February 17, 2011.
    \2\ The TSL is also part of the DHS Science & Technology 
Directorate.
---------------------------------------------------------------------------
    Other MDI technology that has been SAFETY Act Certified for years 
was recently denied Certification renewal along with a new model 
developed for the critical infrastructure protection market. This 
technology is mature and is used every day to detect and deter threats 
at very sensitive facilities where Federal regulations require that 
explosive detection technology be deployed. It provides some of the 
best explosive detection capability available--but it has been denied 
SAFETY Act coverage. This scenario has injected an element of 
arbitrariness that we have not previously experienced.
    While the SAFETY Act and its implementing regulations set forth 
criteria to be considered in evaluating whether a technology should 
receive SAFETY Act Designation, the Under Secretary for Science & 
Technology is directed to exercise discretion in evaluating these 
factors and ``to give greater weight to some factors over others.'' 
Further, the SAFETY Act regulations state in particular that ``the 
Under Secretary is not required to reject an application that fails to 
meet one or more of the criteria'' and that the ``Under Secretary may 
conclude, after considering all of the relevant criteria and any other 
relevant factors, that a particular Technology merits Designation as a 
Qualified Anti-Terrorism Technology even if one or more particular 
criteria are not satisfied.'' Recent decisions on SAFETY Act 
applications suggest a misunderstanding of the evaluation process to be 
performed in determining whether to issue a SAFETY Act Designation for 
a particular technology as well as the relative weighing of the factors 
to be considered. The fact that DHS has denied SAFETY Act renewals 
based upon a purported lack of operational and testing data is clearly 
contrary to the Act's intent to encourage the development and 
deployment of new anti-terrorism technologies.
    MDI is in the business of providing technologies that protect the 
American people. To date, MDI has looked to the SAFETY Act to provide 
important liability coverage for its anti-terrorism technologies. 
Should the SAFETY Act's risk management and litigation management 
provisions not be afforded to MDI's technologies, the company would be 
compelled to reevaluate whether and to what extent it should continue 
to deploy the technology that today is on the front lines of our 
homeland security efforts. The decision not to renew existing SAFETY 
Act approvals certainly does not incent MDI to provide anti-terrorism 
technologies and seems incongruous with the fact that SAFETY Act 
coverage is now being denied for the very technology that was integral 
to the TSA's effort to protect the traveling public and continues to 
deter terrorism in other contexts.
                            recommendations
    SAFETY Act protection is critical to ensuring that technology tools 
are available today for homeland security and even more critical to 
driving the next generation of anti-terrorism technologies. In the 
current economic climate, companies are forced to make difficult 
investment decisions. Homeland security sales can be unpredictable from 
year-to-year and are typically event-driven. Some smaller companies 
with innovative ideas may not have the backing or resources to weather 
this volatile marketplace and may face significant barriers to entry. 
This, in addition to uncertainty about potential liability, could force 
some companies to make a difficult decision--to exit homeland security 
technology development. With an ever-more-sophisticated adversary, our 
homeland security frontline deserves the best technology available and 
continued investment in the tools they need to deter, detect, and 
thwart the next attack. Strong implementation and execution of the 
SAFETY Act is an important aspect in supporting security technology 
innovation.
    We have a few recommendations for the committee's consideration:
  <bullet> Streamline SAFETY Act Certification by recognizing formal 
        test certification by the DHS TSL or by other DHS component 
        agencies. DHS has invested in establishing test certification 
        processes throughout the Department. In addition, the 
        Department of Defense has a well-established test and 
        evaluation process that should also be recognized by DHS in 
        SAFETY Act Certification. The SAFETY Act office should 
        recognize successful completion of one of these DHS or DoD 
        certification processes and expedite approval of applications 
        for these companies. Implementation of this recommendation 
        would eliminate duplicative processes and reduce Government 
        costs associated with the SAFETY Act Certification processes.
  <bullet> Provide greater transparency in the SAFETY Act review 
        process. The SAFETY Act office should provide processing time 
        metrics on its website (www.safetyact.gov) and should be 
        required to notify the committee in the event that processing 
        times exceed those defined in the SAFETY Act Final Rule.
  <bullet> Provide administrative remedies for denial of SAFETY Act 
        Certification. This measure would provide redress for companies 
        who have been denied certification.
  <bullet> The intent of Congress in establishing the SAFETY Act--to 
        enable and encourage U.S. companies to develop and provide 
        vital anti-terrorism technologies to help prevent or respond to 
        terrorist attacks without the threat of enterprise crippling 
        potential liability--is clear, and the importance of the SAFETY 
        Act in facilitating industry's support of our Nation's overall 
        homeland security mission has only grown. The Department of 
        Homeland Security must recommit to vigorous implementation of 
        the SAFETY Act, and the Department's leadership must prioritize 
        efforts to reverse the negative trend of reductions in the 
        total number of SAFETY Act applications and approvals. 
        Implementation of the SAFETY Act should be better aligned with 
        the Federal acquisition process, including eliminating 
        redundancies in and expediting technical evaluation of SAFETY 
        Act applications relating to products and services procured by 
        DHS and other Federal Government entities.
    Thank you for your attention to these issues. I am happy to answer 
any questions you might have.

    Mr. Lungren. Thank you very much for your testimony.
    Now we would ask Mr. Harvey to give us his 5 minutes.

  STATEMENT OF CRAIG A. HARVEY, CHIEF OPERATIONS OFFICER AND 
       EXECUTIVE VICE PRESIDENT, NVISION SOLUTIONS, INC.

    Mr. Harvey. Chairman Lungren, Ranking Member Clarke, 
Ranking Member Thompson from my home State, Members of the 
committee, thank you for asking me to testify today on the 
SAFETY Act. It has been very important to me personally and to 
our business.
    My name is Craig Harvey. I am the chief operating officer 
for NVision Solutions. We were founded in 2002 and are a 
growing, award-winning, minority woman-owned and economically 
disadvantaged company headquartered on the Mississippi Gulf 
course. NVision is a geospatial company technology, 
specializing in emergency management services and products for 
industry and Government.
    With over $1 million in small-business contracts and grants 
from NASA, NVision built a high-tech crisis management 
information system called the Real-Time Emergency Acts and 
Coordination Tool, or REACT.
    In 2007 the Center for Asymmetric Warfare at the U.S. Naval 
postgraduate school invited NVision to participate in a 3-year 
series of Federal, State, and local multi-agency homeland 
security exercises along Puget Sound. During this activity, 
NVision worked with the Pacific Northwest National Laboratory, 
who used REACT to monitor these exercises. During that time 
they began to understand the enormous risk to a small business 
that emergency management and terrorism products represent.
    In 2009, at the recommendation of a partner company, we 
began to investigate the SAFETY Act as a pathway to Nation-wide 
deployment. Our goals were to have the Government review our 
software within the context of the National response plan, 
mitigate litigation risk, and bolster product credibility.
    Our process began the SAFETYact.gov website, which provided 
us with step-by-step application instructions. We did 
participate in the pre-application process. A DHS specialist 
spent 45 minutes with us, describing the application process, 
discussing our product, and answering all of our questions.
    Among the important pre-application facts learned was that 
existing customers like NASA and St. Tammany Parish, Louisiana, 
were critical as real-world performance references and examples 
of customers potentially benefiting from the SAFETY Act.
    The REACT application was started in 2009, including 
everything from company financial statements to product 
documentation, technical descriptions, and marketing strategy. 
The technical application we felt was comparable to an 
applicant patent application. It was 30 pages long. Our entire 
application totaled hundreds of pages and took 6 months to 
complete, minding that we started from scratch.
    We submitted the application in early 2010 and began the 
minimum mandated 4-month review. During that time we exchanged 
17 e-mails and at least a dozen phone calls with DHS, providing 
additional information. Through the entire process, we dealt 
with the same individuals. We felt like our application process 
was moving forward.
    We received a notice of our SAFETY Act designation in July 
2010. DHS informed us we had 30 days to cover a $1 million 
insurance liability before we were officially protected to the 
indemnification clause. This was the only requirement during 
the whole process that represented a problem for us. We had 
significant difficulty locating an insurance broker or agent 
that understood the SAFETY Act and when you said 
``counterterrorism,'' they were backing up faster than an I-
don't-know-what.
    Ultimately, armed with the help and encouragement from DHS 
folks, we finally found a broker that would provide affordable 
insurance and finalize the SAFETY Act designation. To our 
knowledge, we are still the only organization in Mississippi 
with a SAFETY Act-designated product.
    While the SAFETY Act application took nearly a year and 
hundreds of pages of documentation, it wasn't bureaucratic. We 
feel strongly that thoroughness of the process gives a SAFETY 
Act designation meaning and provides tangible benefits to 
Government users, citizens, and protects individuals and 
countries, and at the end, the taxpayers themselves.
    We believe the SAFETY Act provides a tremendous National 
security benefit on incentives to risk mitigation for industry 
to develop homeland security solutions. The process gives DHS 
early insight into product development and the opportunity for 
constructive dialogues with potential suppliers.
    The SAFETY Act also provides a conduit to Government to 
identify solutions well before the crisis strikes, instead of 
attempting to deploy poorly understood technologies in the 
midst of a chaotic event.
    By leveling the playing field and capping financial 
exposure, the SAFETY Act encourages innovation. Without the 
SAFETY Act, our desire to bring REACT to market may have never 
been realized.
    We would like to thank the Members of the subcommittee for 
a chance to tell my company's story. I would be happy to answer 
any questions you may have.
    [The statement of Mr. Harvey follows:]
                 Prepared Statement of Craig A. Harvey
    NVision Solutions Inc. was founded in 2002 and is a growing, award-
winning, minority, woman-owned, small business headquartered on the 
Mississippi Gulf Coast. NVision is a geospatial technology company 
specializing in emergency management services and products for industry 
and government.
    With over 1 million dollars in small business contracts and grants 
from NASA, NVision built a high-tech crisis management information 
system called the Real-Time Emergency Action Coordination Tool or 
REACT. In 2007, The Center for Asymmetric Warfare at the U.S. Naval 
Post-Graduate School invited NVision to participate in a 3-year series 
of Federal, State, and local multi-agency homeland-security exercises 
along the Puget Sound. During this 3-year activity, NVision worked with 
the Pacific Northwest National Laboratory who used REACT to monitor and 
report on first-response training involving hundreds and sometimes 
thousands of participants. The positive attention garnered by REACT 
highlighted the product's potential. At the same time we began to 
understand the enormous risk to a small business realm of homeland 
security.
    In 2009, at the recommendation of a partner company, we began 
investigating the SAFETY Act as a pathway to Nation-wide deployment. 
Our goals were to have the Government review our software within the 
context of the National Response Plan, mitigate litigation risk, and 
bolster product credibility.
    Our process began at The SafetyAct.gov website which provided clear 
step-by-step application instructions. In the pre-application process, 
a DHS specialist spent 45 minutes with us describing the application 
process, discussing our product, and answering all our questions. Among 
the important pre-application facts learned was that existing customers 
like NASA and St. Tammany Parish, Louisiana, were critical as real-
world performance references and examples of customers potentially 
benefiting from SAFETY Act protection.
    The REACT application we started in 2009 included everything from 
company financial statements to product documentation, technical 
descriptions, and marketing strategy. The technical application, 
comparable to a patent application, was 30 pages long. Our entire 
application totaled hundreds of pages and took us 6 months to complete. 
We submitted the application in early 2010 and began the minimum 
mandated 4-month review. During that time we exchanged 17 e-mails and 
at least a dozen phone calls with DHS providing additional information. 
Through the entire process we dealt with the same individuals and 
always felt the application process was moving forward.
    We received notice of our SAFETY Act Designation on July 27, 2010. 
DHS informed us we had 30 days to cover a $1 million insurance 
liability before we were officially protected by the Act's 
indemnification clause. This requirement is the only part of the 
process presenting us with difficulty. We found insurers unfamiliar 
with the SAFETY Act and unwilling to cover ``acts of terrorism''. 
Despite the fixed liability we were unable find affordable insurance. 
Ultimately, armed with help and encouragement from DHS, we finally 
located a broker willing to provide affordable insurance and finalized 
our SAFETY Act designation. To our knowledge, we are the first 
organization in the State of Mississippi to have a SAFETY Act-
designated product.
    While the SAFETY Act application process took nearly a year and 
hundreds of pages of documentation, it was never ``bureaucratic''. We 
feel strongly that the thoroughness of the process gives the SAFETY Act 
designation meaning and provides tangible benefits to the Government 
users, the citizens it protects, and the individuals and companies that 
develop innovative products.
    We believe the SAFETY Act provides a tremendous National security 
benefit and provides incentives, through risk mitigation, for industry 
to develop homeland security solutions. The process gives DHS early 
insight into product development and the opportunity for constructive 
dialogues with potential suppliers. The SAFETY Act also provides a 
conduit for the Government to identify solutions well before a crisis 
strikes instead of attempting to deploy poorly understood technologies 
in the midst of chaotic events.
    By leveling the playing field and capping financial exposure The 
SAFETY Act encourages innovation. Without the SAFETY Act, our desire to 
bring REACT to market may have never been realized.

    Mr. Lungren. Thank you very much.
    I thank all the panelists for their testimony. I recognize 
myself for 5 minutes.
    The purpose, as I see it, of the SAFETY Act is to improve 
the opportunity for companies to be proactive, as suggested by 
Mr. Pearl. In some ways that means making these kind of 
products successful to the bottom line of your company. It 
seems to me if somehow in the process of implementing the 
SAFETY Act, it becomes a burden--that is, it provides a 
disincentive for you to be involved in the system--then we have 
defeated ourselves.
    So, Mr. Harvey, I would like to ask you this. If you were 
to be told that when your possibility for renewal comes up, you 
would have to go through exactly the same thing and spend 
exactly the same amount of time before renewal of the 
application for which you had been previously approved, would 
you think that would be an incentive for you? Would you think 
that would be--does that make sense to you?
    Mr. Harvey. Given the risk involved, we would comply.
    Mr. Lungren. I know you would comply, but does that seem to 
make sense to you if, in fact, you went through this process to 
prove the efficaciousnes of your program, and then when it 
comes around for renewal, instead of giving you--I will put it 
this way in non-legal terms--the benefit of the doubt, because 
you have already been approved, you basically have to go 
through the same thing all over again?
    Mr. Harvey. I think starting completely over would be 
somewhat of a waste of time. I think the Act itself for 
redesignation should be what happened since the last time we 
saw your technology.
    Mr. Lungren. Mr. Pearl, what is your experience in terms of 
renewal? Am I wrong in what I had been told by some companies 
that that appears to be a do-it-over-again type of process 
rather than give you the benefit of the doubt, based on the 
fact that you have already been approved the first time?
    Mr. Pearl. Well, Mr. Chairman, not only is it a do-it-over-
again process, it is that the level of non-renewals is so high 
over the last 4 or 5 years that it has become a disincentive, 
and companies are just basically going back to, well, what has 
changed with regard to the criteria, so that in essence it not 
only sends a message to companies that have gone through a 
process and are not renewed, but whether or not any new 
technologies that they have developed subsequent to that--why 
would they go through the process again when the chances of 
renewal are not going to----
    Mr. Lungren. Let me ask you this: In terms of the 
marketplace, if you are a company that has, say, SAFETY Act 
certification, and you are having trouble getting renewal, what 
does that do with your ability to present yourself to 
purchasers?
    Mr. Pearl. Well, I would rather take it for the macro 
level.
    Mr. Lungren. Okay.
    Mr. Pearl. The macro level is, as I think Mr. Finch talked 
about, is that there is no question that having a couple 
hundred in essence, and there is a major designation that the 
public doesn't realize that there is, which is that there is a 
difference between a SAFETY Act-certified and a SAFETY Act-
designated.
    You can't, in essence, present yourself into the 
marketplace, for example, as having been a designated--as 
having been a certified SAFETY Act. You cannot present yourself 
in the marketplace at this point in time to have gone through 
the designation process, for example.
    So, in essence, the number of technologies that you just 
know anecdotally over the last 10 years in our country that 
have--the IT and the services that exist out there are 
significantly greater than 400. Therefore, that shows in and of 
itself that this potentially very successful program is 
probably the most under-reported and under-utilized program, so 
that it is not about the renewal process just existing, it is 
about whether or not companies even know out there that they 
can and should take advantage of this important Act.
    Mr. Lungren. Mr. Boylan, I am somewhat concerned about your 
suggesting that the left hand doesn't know what the right hand 
is doing. I am sure that in your contact with the Department--
you have mentioned it--what kind of response have you been 
given?
    Are they so far apart geographically that they can't talk 
to one another? Does the one side not recognize the worth of 
the other? Are the goals or the specific purposes of the two 
operations so disparate that there is no way to have 
commonality?
    Mr. Boylan. The TSL is in Atlantic City, and the SAFETY Act 
office is here. But it has gotten better, because I have been a 
squeaky wheel, I must admit, on this, because I have no choice. 
I have to have SAFETY Act certification for my technologies, or 
I can't deploy it. So it has gotten better.
    I just got designation for a new product last week, and I 
have worked to put the TSL and the SAFETY Act people in contact 
with each other. But I think they are talking to each other.
    But there is still a disconnect, from my view, on the 
operational reliability focus that the SAFETY Act office has at 
this point in time. That is an element of the TSL. You know, I 
told you it is over a year process. That is definitely a part 
of the process, and I think they get confused with some of the 
procurement processes that then occur thereafter.
    Mr. Lungren. Has anybody cited to you legislative language, 
statutory language that prohibits them from working in concert?
    Mr. Boylan. No.
    Mr. Lungren. Okay.
    My time has expired.
    I recognize the Ranking Member of the subcommittee, Ms. 
Clarke.
    Ms. Clarke. Thank you, Mr. Chairman.
    I would like to thank you all for your testimony here this 
morning.
    My first question goes to Mr. Pearl. I wanted to just sort 
of reach a little bit deeper beneath the surface of your 
testimony today, where you spoke about the inconsistencies in 
the certification application process. Could you just sort of 
identify, maybe, the top three inconsistencies that you have 
been able to identify?
    Mr. Pearl. Well, as I just alluded to, Congresswoman, the 
No. 1 is the inconsistency goes to the refusal to renew SAFETY 
Act already-designated applications, so that if you have gone 
through the process, the dramatic drop in the number of 
applications that are successful suggests that the Department 
has possibly changed its ways of administering the program. 
That sends out a message of inconsistency.
    When you had the competitiveness issues arise, that if I 
had the same technology, for example, that another company had, 
and yet I could not receive the designation, but that company 
has, that sends a message of inconsistency as well.
    I am encouraged by what the deputy under secretary 
mentioned with respect to the block approach, but we have not 
seen that, in essence, out in the marketplace yet. That has not 
been translated. So if I was going to focus on any one 
particular issue of inconsistency and the lack of transparency, 
it would be on the issue of the renewal issue.
    Ms. Clarke. Then you also spoke about the distinction 
between the being certified versus designated. Could you go a 
little bit deeper into that as well?
    Mr. Pearl. Well, I mean, I think that you even hear it in 
the testimony today when with the numbers that come out of S&T 
are the number of, in essence, successful applicants. The vast 
majority of those--and you can correct me, and Brian may know 
even more--the vast majority of those are simply designated, 
not certified.
    When you are a designated and not certified, and as part of 
our original testimony, many of our companies were very 
concerned that they couldn't sell that into the marketplace, 
that in point of fact, when you are certified you can, but when 
you are designated, and you have gone through the same 
application process, you cannot use the SAFETY Act seal. You 
cannot let the market know.
    It may in fact be, as our other witnesses might attest to, 
it is going to be incredibly more difficult to get insurance 
coverage, because the insurance industry doesn't understand the 
difference.
    Ms. Clarke. The distinction between the two.
    Mr. Finch, would you sort of add your insight into that 
particular, because that seems to be the crux, or one of the 
major issues here is the distinction between certification 
versus designation and, you know, what you have found?
    Mr. Finch. Absolutely. I mean, the numbers and the 
experiences of this panel would attest to the number of 
certifications has decreased over time. It decreased 
significantly. I believe the number was one for----
    Ms. Clarke. Is it that there is a higher block for the----
    Mr. Finch. Actually----
    Ms. Clarke. Okay.
    Mr. Finch [continuing]. When you go through the application 
process, I mean, functionally the way it works is that you have 
to have proper processes, procedures, quality control measures, 
and demonstrable effectiveness in order to be designated.
    Then when you go to certification, there appears to be 
additional data detailing reliability and additional layers of 
effectiveness, et cetera. When you go through the application 
process, I can tell you, having prepared any number of them, 
the certification questions, you simply say, ``See previous 
responses in designation section,'' because you lay all that 
out already.
    So what we seem to be encountering is that there needs to 
be more evidence of effectiveness, more evidence of reliability 
stretched out over a period of years. That has been 
frustrating.
    As Mr. Pearl is alluding to, then you get into situations 
where companies were certified 2005, 2006, et cetera, and they 
come back, and they are not getting certification upon renewal. 
The response is, ``Well, we want to see more specific types of 
reliability. We want to see more specific types of 
effectiveness.''
    I don't have a problem with the Office of SAFETY Act 
limitation asking for more specific information. What I do have 
a problem with them is, and what I do have a challenge 
understanding is, how did it get to the point where years of 
deployment successfully certified with demonstrable data spread 
out over 6, 9, 12 months in a particular forum, that is not 
acceptable for certification?
    In the absence of anything being glaringly wrong, I am 
having trouble understanding why something would drop from 
certification to designation and why, generally speaking, 
certification isn't the default at the end of the day.
    Ms. Clarke. Okay.
    Mr. Harvey, would you tell us a little bit more about your 
company? I understand it is located near a large research and 
applied technology center, the Stennis Space Center in 
Mississippi. How has the physical location helped you 
collaborate with other technology companies, and what benefit 
has that been to your company?
    Mr. Harvey. Yes, ma'am. Our company started in an incubator 
at NASA Stennis Space Center. We started down this path on the 
technology side in 2003, and we have worked--our product itself 
has products that are rolled up from four or five different 
small technological companies that are also co-located in and 
around Stennis Space Center.
    Having ready access, then, to the NASA scientists and the 
requirements specifically for NASA requiring emergency 
management and crisis management provided us all of the 
requirements that we needed to build our product to. It was 
built largely funded through the SBIR program or the dual-use 
broad area announcements, so.
    Ms. Clarke. Could you just sort of give us some insights 
into how you worked with Boeing on the development of your 
product?
    Mr. Harvey. Yes, ma'am. Boeing technically was a 
collaborator. There was no funds or technology that changed 
hands. We were working on the civil side of our application, 
and they were building a handheld unit. They introduced us to 
the California group and as well as the Puget Sound and the 
Pacific Northwest Laboratory.
    It was Boeing and their reluctance to accept risk that 
pointed us as ``you really need to consider the SAFETY Act.'' 
We really hadn't heard about it until that point. So if, you 
know, granted we are on a coast, and we are on the south coast 
of the United States, but where the Federal center, and it 
seems to me with the amount of technology development, there 
should be placards or signs or something advertising, you know, 
the SAFETY Act and its benefits.
    I would think that, you know, it is something that the SBA 
should help with. I mean, they have got offices in every major, 
you know, city in the country. I don't think it is very well 
advertised, to be honest with you.
    Ms. Clarke. Very well.
    Thank you very much, Mr. Chairman.
    Mr. Lungren. I think we have time to ask a few more 
questions before we have votes.
    Mr. Harvey, it is great to hear that while you are very 
much geographically connected with the Ranking Member of the 
full committee, that you did have to work with a California 
company. We appreciate that.
    [Laughter.]
    Mr. Lungren. I have a question, and I will start with you, 
Mr. Harvey, but I would like others to make an observation on 
this.
    You said that the application process took over a year, or 
about a year, required hundreds of pages of documentation. You 
said both in your spoken testimony and your written testimony 
that it was never bureaucratic, yet you also went on to say 
that the technical application was comparable to a patent 
application.
    Some would say those are incongruous statements you made. I 
am trying to figure out whether you believed that the process 
was so rigorous because it is necessary that it means something 
or that it is just the nature of things that, when we go 
through these things we have gotten into, you don't call it 
bureaucratic paperwork requirements.
    So I am trying to figure out whether you are saying we 
understand they had to be that thorough and therefore it would 
have to take a year and all this paperwork and all this amount 
or it wasn't. Can you give me some guidance on what you are 
trying to tell me?
    Mr. Harvey. Yes, Mr. Chairman. If you want me to complain 
about the Government, I can find lots of topics.
    Mr. Lungren. Oh, no, no, what I am trying to do is ask for 
an assessment, because I want this thing to work. Everybody 
loves it. I mean, the representative of the Department comes 
here and gives me a button that says, ``I love the SAFETY 
Act.'' Well, if you use a yellow button like this, it means you 
want it to work. You folks want it to work.
    Yet I hear that we only had 400-and-some-odd people that 
are--companies that are taking advantage of it, when it 
literally should be thousands, if we really believe it. So I am 
trying to figure out what I can do to make it work even better 
so we can all love it together. So give us your best shot.
    Mr. Harvey. Mr. Chairman, I believe it works. What I really 
believe is the reason it took us a little longer than average 
was because we didn't have a lot of technical documentation at 
hand. We are a very small company, and when we started this, we 
had 20-something people, so we didn't have a lot of the 
technical writing done. So we had to go back, when I say we 
started from scratch, documenting our product, really.
    I think it is a very onerous process, but it is not 
bureaucratic. It is time-consuming, but it is a level of detail 
that I personally believe has to be there to have any 
credibility whatsoever. I say that both from a technologist and 
a taxpayer perspective. If we didn't have that level of detail, 
it wouldn't have the credibility that it has.
    Mr. Lungren. The real attraction, of course, is the 
protection, in a sense, from civil liability. I spent a number 
of years as a lawyer in the courtroom. I understand the 
importance of the litigation system, but I also understand the 
abuses of the litigation system. I want this to be rigorous. I 
want this to be thorough. I want it to mean something. But I 
also want to make it workable.
    So, Mr. Pearl, how do we hit the sweet spot? How do we make 
sure that it is fair but at the same time not bureaucratic? How 
do we make sure that it is timely but not take too much time? 
How do we make sure that there is an incentive that hasn't 
dissolved into disincentive?
    Mr. Pearl. Well, I think that part of it is that the entity 
that is administering the program, it is a scientific component 
part of the Department. It is an important one, and one that is 
very valuable, the science and technology.
    The connection point to that and the legal community is a 
little tenuous in terms of how do lawyers talk to engineers in 
terms of making things right? I think that one of the problems 
is, as I think, you know, Mr. Boylan pointed out, is that in 
point of fact if you are going through a heavy, rigorous 
process like the Transportation Security Lab, and they are not 
talking with the S&T, then in point of fact you are missing the 
whole point of what Congress intended.
    If, in fact, Federal contracting procurement officials have 
to be educated by the company as to the value of the SAFETY 
Act, you are not achieving what Congress intended in the first 
place.
    So the encouragement of exactly the greater reporting of 
this process will, I think, raise--you know, the high tide will 
raise all ships and that in point of fact people will, if they 
choose to go to, you know, Mr. Finch for the purposes of 
getting legal advice on the application, or they choose to do 
it on their own, we need to have an encouraging process and a 
platform on which these companies can take off and develop the 
kind of designation that they are looking for.
    Mr. Lungren. Ms. Clarke, do you have some questions?
    Ms. Clarke. Thank you, Mr. Chairman.
    Mr. Pearl, I would like to sort of investigate with you 
some ways in which you think the S&T can encourage the 
successful deployment of these technologies. You talked about 
the need for there to be that of encouragement. Certainly, the 
rigors and the challenges of connecting all the dots are where 
we are stuck right now.
    But, you know, where do you see those bridges built, and 
where do you see the capacity of the agency to really use this 
type of encouragement? Is it through collaboration or MOU with 
SBA? What would you say?
    Mr. Pearl. Well, I think the first--there are two levels. 
One is the internal component part of Federal officials, 
whether it be at SBA, whether it be at other directorates at 
the Department, whether it be at, you know, at DOD or at 
Energy, anybody who is actually looking at the issues of, in 
essence, anti-terrorism technologies and services should be 
well aware of what is going on. That is not a budget issue. 
That is internal communication issue.
    Three years ago the council--and I would ask the staff to 
possibly include that as part of the written record--put 
together an executive brief on how we could encourage greater 
embracement of the SAFETY Act. Part of that was greater 
communication to the community in the private industry.
    We are standing ready to want to do this. We think it is in 
all of our interests to, in essence, promote this as an under-
reported program, and we want to work with the Department. If 
the budget doesn't exist, then we will in the community--in the 
private sector are willing to do our fair share in terms of 
promoting this.
    That is part of our outreach, and we have been in 
discussions with S&T about just those very things in light of 
the realities of today, which is there isn't a lot of money, as 
Mr. Benda said, to in essence do more on that. But the private 
sector, because it wants it to be successful, is prepared to 
step in and take on its role and responsibility.
    Ms. Clarke. Thank you.
    Mr. Lungren. Mr. Pearl, do we have a copy of that report 
you are talking about?
    Mr. Pearl. I sent it electronically, and if you can include 
it in the----
    Mr. Lungren. Okay. Without objection, we will include that 
as part of the record.*
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
    Mr. Pearl. Thank you.
    Mr. Lungren. All right. I just want to thank all of you for 
your testimony. It has been very, very helpful.
    I still have some questions that I am going to work out. I 
mean, if renewal is so important, why aren't more companies 
attempting to get renewal? That would either tell me that 
either the companies don't find certification to be that 
important or somehow there is a stumbling block to get 
recertification, and it would work against the intent of the 
program.
    We are going to try and work with the Department and work 
with you and others to make sure this works. This subcommittee 
wants it to work effectively, and so we are going to exercise 
vigorous oversight over this program.
    I am going to request that we have quarterly briefings for 
our subcommittee by the Department on this issue, because I 
just happen to think--this is a bipartisan thing. There is no 
partisanship involved here. My comments were directed towards 
DHS both under Republicans than Democrats.
    I know it is a maturation process, but maturation, 
hopefully, results in not only better understanding, but ease 
of application. I think everybody seems to agree we need to get 
the word out to more people so that they would see the 
importance of it.
    I guess we ought to make sure that the Federal procurement 
officers are aware of this and that that may be one of the best 
outreach programs we have got. But I don't want it to be 
another sense of bureaucracy, that a procurement officer 
mentions it to a potential supplier and all of a sudden they 
go, ``Oh, my god, I can't get it'' or ``I have heard the horror 
stories'' or ``once I get it, do I keep it'' and all those 
sorts of things.
    So thank you. Your testimony has been very, very helpful. 
We are committed to making sure this works. You have helped us 
greatly on this. You have also been very helpful--every one of 
you stayed within seconds of the 5 minutes we asked you to 
begin with, which I must tell you is very, very rare here.
    So I thank you for your valuable testimony, and the Members 
who were in attendance for their questions. The Members of the 
committee may have some additional questions that they would 
submit to you in writing, and we would ask you to respond in 
writing, if possible. The hearing record will be held open for 
10 days, and this subcommittee stands adjourned.
    [Whereupon, at 11:22 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
